 AUDIT OF THE DEPARTMENT OF 

JUSTICE’S EFFORTS TO ADDRESS

      MORTGAGE FRAUD



      U.S. Department of Justice

    Office of the Inspector General

             Audit Division


         Audit Report 14-12

            March 2014

                 AUDIT OF THE DEPARTMENT OF JUSTICE’S

                 EFFORTS TO ADDRESS MORTGAGE FRAUD


                                 EXECUTIVE SUMMARY


        The Department of Justice (DOJ) and its components, particularly the FBI,
United States Attorneys’ Offices (USAO), Criminal Division, and Civil Division, along
with the DOJ-led interagency Financial Fraud Enforcement Task Force (FFETF), play
an important role in combating mortgage fraud through civil litigation and criminal
investigation and prosecution. The objective of this audit was to assess DOJ’s
approach and enforcement efforts in addressing mortgage fraud generally between
fiscal years (FY) 2009 and 2011.

       DOJ and its components have repeatedly stated publicly that mortgage fraud
is a high priority and during this audit we found some examples of DOJ-led efforts
that supported those claims. Two such examples are the Criminal Division’s
leadership of its mortgage fraud working group and the FBI and USAOs’
participation on more than 90 local task forces and working groups. However, we
also determined during this audit that DOJ did not uniformly ensure that mortgage
fraud was prioritized at a level commensurate with its public statements. For
example, the Federal Bureau of Investigation (FBI) Criminal Investigative Division
ranked mortgage fraud as the lowest ranked criminal threat in its lowest crime
category. 1 Additionally, we found mortgage fraud to be a low priority, or not listed
as a priority, for the FBI Field Offices we visited, including Baltimore, Los Angeles,
Miami, and New York. We also found that while the FBI received $196 million in
appropriated funding to investigate mortgage fraud activities from fiscal years 2009
through 2011, in FY 2011 the number of FBI agents investigating mortgage fraud
as well as the number of pending investigations decreased.

       We also attempted to review the scope of DOJ’s prosecutorial efforts to
address mortgage fraud by reviewing case data. However, we found that the
Executive Office for United States Attorneys’ (EOUSA) case management system
did not allow for a complete or reliable assessment of DOJ’s mortgage fraud efforts
because many Assistant United States Attorneys (AUSA) informed us about
underreporting and misclassification of mortgage fraud cases. They further
explained that mortgage fraud cases are often coupled with other criminal activities
and that, when initiating a case file, an AUSA may fail to include the mortgage
fraud code if it is not the leading charge in a case. In addition, EOUSA is unable to
track the complexity of criminal cases or whether the individual defendants
prosecuted were high level officials. Capturing such information would allow DOJ to
better understand its overall effort and to better evaluate its performance in
targeting high-profile offenders.


       1
          According to FBI Criminal Investigative Division officials, certain complex financial crimes
are not assigned a priority ranking. For example, the FBI informed us that crimes such as bankruptcy
fraud, credit card fraud, mass marketing fraud, insurance fraud, money laundering, and other mail
and wire fraud crimes were not ranked at all.

                                                   i
       In addition to criminal prosecutions, DOJ’s fight against mortgage fraud also
exists in its civil enforcement efforts. For example, in July 2011, Project High
Default Lender was initiated by the U.S. Department of Housing and Urban
Development, Office of the Inspector General (HUD-OIG) in conjunction with the
Civil Division. The HUD-OIG provided 84 USAOs with lender default data for
potential civil investigations and approximately 40 civil investigations were opened
as a result of this effort. However, EOUSA was unable to provide any data related
to DOJ’s civil enforcement efforts because the EOUSA case management system is
unable to specifically identify civil mortgage fraud cases. We believe that DOJ
should capture such data in order to better understand its overall effort to combat
mortgage fraud and to provide a complete and accurate picture of the DOJ civil
enforcement effort to ensure that initiatives like Project High Default Lender are
properly accounted for.

       The Department’s inability to accurately collect data about its mortgage fraud
efforts was starkly demonstrated when we sought to review the Distressed
Homeowner Initiative. On October 9, 2012, the FFETF held a press conference to
publicize the results of the initiative. 2 During this press conference, the Attorney
General announced that the initiative resulted in 530 criminal defendants being
charged, including 172 executives, in 285 criminal indictments or informations filed
in federal courts throughout the United States during the previous 12 months. The
Attorney General also announced that 110 federal civil cases were filed against over
150 defendants for losses totaling at least $37 million, and involving more than
15,000 victims. According to statements made at the press conference, these
cases involved more than 73,000 homeowner victims and total losses estimated at
more than $1 billion.

       Shortly after this press conference, we requested documentation that
supported the statistics presented. In November 2012, in response to our request,
DOJ officials informed us that shortly after the press conference concluded they
became concerned with the accuracy of the statistics. Based on a review of the
case list that was the basis for the figures, the then-Executive Director of the FFETF
told us that numerous significant errors and inaccuracies existed with the
information. For example, multiple cases were included in the reported statistics
that were not distressed homeowner-related fraud. Also, a significant number of
the included cases were brought prior to the FY 2012 timeframe.

        Over the following months, we repeatedly asked the Department about its
efforts to correct the statistics. We learned that, on August 9, 2013, the FBI
provided a memorandum to the FFETF concluding that several of the statistics
announced during the October 2012 press conference were substantially
overstated. Specifically, the number of criminal defendants charged as part of the
initiative was 107, not 530 as originally reported; and the total estimated losses
associated with true Distressed Homeowners cases were $95 million, 91 percent


         2
            According to the Distressed Homeowner Initiative press release issued on October 9, 2012,
the initiative was “the first ever nationwide effort to target fraud schemes that prey upon suffering
homeowners.”

                                                  ii
less than the $1 billion reported at the October 2012 press conference. The
Department’s October 9, 2012, press release and the press conference transcript of
the Attorney General’s remarks, both available on the Department’s website, now
include disclosures citing the inaccuracy of the originally reported statistics, and the
language in each has revised wording and statistics based on the FBI’s August 2013
memorandum.

       Despite being aware of the serious flaws in these statistics since at least
November 2012, we found that the Department continued to cite them in mortgage
fraud press releases that it issued in the ensuing 10 months. We believe the
Department should not have continued to issue press releases with these statistics
once it became aware of the serious flaws.

       We also found that neither DOJ nor the FFETF had an established
methodology for obtaining and verifying the criminal mortgage fraud statistics
announced during the press conference on October 9, 2012. We found this process
to be disturbing, and it led the Department to report inaccurate information to the
public.

       According to DOJ officials, the data collected and publicly announced for an
earlier FFETF mortgage fraud initiative – Operation Stolen Dreams – also may have
contained similar errors. 3 According to these officials, a similar collection
methodology was employed for the statistics publicly reported by the Department
for this initiative.

      This audit report makes 7 recommendations to help DOJ improve its
understanding, coordination, and reporting of its efforts to address mortgage fraud.




       3
           Operation Stolen Dreams started on March 1, 2010, and was announced as “the largest
collective enforcement effort ever brought to bear in confronting mortgage fraud.”

                                                iii
                  AUDIT OF THE DEPARTMENT OF JUSTICE’S

                  EFFORTS TO ADDRESS MORTGAGE FRAUD


                                     TABLE OF CONTENTS


OIG Audit Approach ....................................................................................2

Enactment of the Fraud Enforcement and Recovery Act ..............................3

The Financial Fraud Enforcement Task Force ..............................................4

DOJ Approach to Mortgage Fraud................................................................5

DOJ Criminal Enforcement Effort.................................................................6

FBI Investigative Effort ................................................................................... 7

EOUSA and USAO Prosecutorial Effort ............................................................. 13

DOJ Civil Enforcement Effort ..................................................................... 20

Civil Enforcement Data ................................................................................. 21

Civil Enforcement Coordination and Resource Limitations .................................. 22

FFETF and DOJ Mortgage Fraud Prosecution Initiatives ............................23

Distressed Homeowner Initiative.................................................................... 23

Operation Stolen Dreams .............................................................................. 28

Conclusion ................................................................................................29

Recommendations..................................................................................... 29

STATEMENT ON INTERNAL CONTROLS ...................................................... 31

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ................ 32

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY............................33

APPENDIX II - EXECUTIVE ORDER 13519 FINANCIAL FRAUD

  ENFORCEMENT TASK FORCE ................................................................. 35

APPENDIX III - DOJ COMPONENTS TASKED WITH COMBATING

  MORTGAGE FRAUD ............................................................................... 39

APPENDIX IV - DISTRESSED HOMEOWNER INITIATIVE PRESS

  CONFERENCE........................................................................................ 40

APPENDIX V - FEDERAL BUREAU OF INVESTIGATION MEMORANDUM....... 43

APPENDIX VI - DEPARTMENT OF JUSTICE RESPONSE TO THE DRAFT

  AUDIT REPORT ..................................................................................... 44

APPENDIX VII - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT ................ 50

                AUDIT OF THE DEPARTMENT OF JUSTICE’S

                EFFORTS TO ADDRESS MORTGAGE FRAUD


       The Department of Justice (DOJ) and its components, particularly the Federal
Bureau of Investigation (FBI), United States Attorneys’ Offices (USAO), Criminal
Division, and Civil Division, along with many other federal, state, and local law
enforcement agencies, play a lead role in combating mortgage fraud by using
criminal and civil enforcement tools against individuals and entities that commit
mortgage fraud. 4

       According to the co-chair of the Financial Fraud Enforcement Task Force
(FFETF) Mortgage Fraud Working Group (MFWG), in the early 2000s, a booming
real estate market, combined with a relaxation of underwriting standards and
practices, created an environment for mortgage fraud to flourish. During this time,
according to the co-chair of the MFWG, a host of corrupt borrowers and industry
insiders including – real estate agents, property appraisers, attorneys, title
insurance agents, and mortgage brokers – capitalized on opportunities to victimize
financial institutions.

        An article written by the co-chair of the MFWG stated that when the housing
market began to decline in 2007, real estate values began to fall and mortgage
lenders began experiencing large losses due to fraud, reducing their ability to fund
new mortgage loans. Foreclosures left houses empty and ill-kept, while their
artificially inflated prices kept new buyers from buying them. Neighborhoods, which
had seen their real estate tax bills increase steeply due to the inflated sales prices
of the fraudulently mortgaged homes, found themselves surrounded by abandoned,
decaying houses that invited crime.

       The nature and seriousness of mortgage fraud varies from state to state and
city to city, with some areas affected more significantly than others. According to
the FBI, the overall levels of mortgage fraud activity corresponds closely with
mortgage loan originations, unemployment, mortgage loan delinquencies, loan
defaults, foreclosures, negative home equity values, loan modifications, housing
prices and inventory, real estate sales, housing construction, and bank failures.

      According to the FFETF, common mortgage fraud schemes typically involve a
borrower or industry insider who misstates, misrepresents, or omits information on
a mortgage application that causes a lender to fund, purchase, or insure a
mortgage loan it otherwise would not have had it possessed the correct
information. This type of fraud is known as loan origination fraud and is considered
by the FBI to be the most common type of mortgage fraud scheme.

       Loan origination fraud is divided into two categories: fraud for housing and
fraud for profit. Fraud for housing entails misrepresentations by the applicant for

       4
         See Appendix III for the complete list of DOJ components that have a role in addressing
mortgage fraud.




                                                 1

the purpose of purchasing a property for a primary residence. This scheme usually
involves a single loan. Although applicants may embellish income and conceal
debt, the intent of the borrower usually is to repay the loan. Conversely, fraud for
profit often involves multiple loans and elaborate schemes perpetrated to gain illicit
proceeds from property sales. Intentional misrepresentations concerning appraisals
and loan documents are common in fraud for profit schemes, and participants are
frequently paid for their participation.

       According to the FBI, loan origination fraud was the most prevalent type of
scheme due to the ease in obtaining a loan. However, tightened lending practices
that followed the collapse of the housing market led mortgage fraud crime to evolve
away from loan origination fraud in many areas of the country. Now, we were told
by the FBI, there are many different schemes that victimize consumers, such as
foreclosure rescue scams, loan modification schemes, and short-sale frauds. The
FBI reported that for the first time in many years, distressed homeowner frauds
have displaced loan origination fraud as the number one mortgage fraud threat in
many areas of the country.

       Distressed homeowner scams target vulnerable homeowners and include
schemes such as foreclosure rescue and loan modification. In a foreclosure rescue
scheme, perpetrators convince homeowners that they can save their homes from
foreclosure through deed transfers and the payment of up-front fees. Loan
modification schemes are a type of foreclosure rescue scheme in which advanced
fees are paid by homeowners. Perpetrators solicit homeowners offering to help
them stop the foreclosure process on their homes. Perpetrators require an up-front
fee from homeowners to participate in the loan modification program. Often, after
collecting these fees, these companies do little or nothing to help the homeowners.
Foreclosure schemes are often used in combination with other fraudulent schemes,
such as those involving short sales and property flipping.

       Some observers use the term “mortgage fraud” to include mortgage-backed
securities fraud, which involves wrongdoing related to the packaging, selling, and
valuing of residential and commercial mortgage-backed securities. However, the
FBI considers this type of misconduct to be a form of securities fraud and not
mortgage fraud; therefore, we did not include as part of the scope of this audit.

OIG Audit Approach

        The objective of this audit was to assess DOJ’s approach and enforcement
efforts in addressing mortgage fraud. To accomplish our objective we interviewed
officials from several DOJ components responsible for addressing mortgage fraud,
including the Criminal Division, Civil Division, Executive Office for United States
Attorneys (EOUSA), five USAOs, and officials at FBI headquarters and four FBI field
offices. To gain a broader perspective on mortgage fraud issues and DOJ’s efforts
to combat mortgage fraud, we also interviewed representatives from non-DOJ
agencies with responsibilities for addressing mortgage fraud. These non-DOJ
agencies included officials from the Department of Housing and Urban Development
Office of the Inspector General, the Federal Housing and Finance Agency Office of


                                          2

the Inspector General, and the Department of the Treasury’s Financial Crimes
Enforcement Network (FinCEN). In addition, we reviewed statistics provided by the
FBI and EOUSA related to mortgage fraud investigations and prosecutions as well
as manpower resources dedicated to mortgage fraud.

       In addressing our audit objective, this report provides an overview of the
federal government’s recent response to mortgage fraud. Following that, we assess
DOJ’s role and overall approach to mortgage fraud and offer recommendations for
improving reporting of its efforts to combat this crime. We also provide analyses of
the investigative, prosecutorial, and civil enforcement efforts of the various DOJ
components involved in addressing mortgage fraud and make recommendations to
strengthen those mortgage fraud efforts.

Enactment of the Fraud Enforcement and Recovery Act

       On May 20, 2009, the President signed the Fraud Enforcement and Recovery
Act of 2009 (FERA). 5 FERA was intended to enhance criminal and civil enforcement
of federal fraud laws, especially mortgage fraud, and provide agents and
prosecutors with the necessary resources to address these crimes. Two provisions
of FERA involving mortgage fraud enforcement included amendments and revisions
to criminal and civil fraud statutes. First, FERA expanded the definition of a
financial institution to include mortgage lending businesses not directly regulated or
insured by the federal government. This change enlarged the scope of federal
prosecutions in the area of mortgage fraud by making it a federal crime to defraud
these types of institutions. Second, FERA revised part of the False Claims Act,
which is one of the government’s civil tools for redressing fraud against American
taxpayers. The amendment expands liability under the False Claims Act by more
broadly defining “a false record or statement material to a false or fraudulent claim”
to include “any request or demand” related to a government program and which
will be paid from funds supplied by the government.

        FERA also authorized DOJ to receive an additional $165 million for fiscal
years 2010 and 2011 in order to pursue criminal, civil, and administrative
investigations and prosecutions of financial frauds, including mortgage fraud.
However, outside of the FBI, FERA did not specifically require that a portion of
these funds be used for mortgage fraud. Additionally, the actual amount of funds
appropriated by Congress to the DOJ following the adoption of FERA were
significantly less than the amounts authorized by FERA, as shown below.




      5
          Pub.L. 111-21, S. 386, 123 Stat. 1617 (2009).




                                                3

                 Fraud Enforcement and Recovery Act Funds
                         Authorized and Appropriated
                                 (in millions)
      Component Authorized       Appropriated  Authorized Appropriated
                     FY 2010       FY 2010      FY 2011     FY 2011
          FBI         $75M         $25.5M        $65M       $20.2M
         USAOs        $50M          $7.5M        $50M          $0
        Criminal      $20M          $1.8M        $20M          $0
        Division
          Civil       $15M            $0         $15M          $0
        Division
       Source: DOJ

The Financial Fraud Enforcement Task Force

       On November 17, 2009, the President issued an Executive Order creating the
Financial Fraud Enforcement Task Force (FFETF). The FFETF is an interagency task
force led by DOJ and chaired by the Attorney General. The membership of the
FFETF consists of more than 25 federal agencies, regulators, and inspectors
general, as well as state and local partners. 6 An Executive Director of the FFETF
was assigned from DOJ.

        According to the Executive Order, the President created the FFETF to
strengthen the efforts of the DOJ to investigate and prosecute significant financial
crimes, recover the proceeds of those crimes, and ensure just and effective
punishment. One of the missions of the FFETF is to enhance cooperation between
federal, state, local, tribal, and territorial authorities responsible for the
investigation and prosecution of significant financial crimes. According to its First
Year Annual Report, the FFETF also was charged with promoting training, data
collection, and information sharing. In support of this mission, the FFETF
established three committees that address enforcement efforts, training and
information sharing, and victims' rights. The Enforcement Committee created five
working groups to focus on certain priority areas, bringing together subject matter
experts from agencies at an operational level to work together to make a
significant, coordinated, and focused push of enforcement in these areas. 7




       6
         See Appendix II for Executive Order 13519 on the Financial Fraud Enforcement Task Force
(E.O. 13519) which includes Task Force membership.

        7
          The five original working groups of the FFETF were: (1) the Mortgage Fraud Working Group,
(2) the Recovery Act, Procurement, and Grant Fraud Working Group, (3) the Rescue Fraud Working
Group, (4) the Securities and Commodities Fraud Working Group, and (5) the Non-Discrimination
Working Group. The number of working groups was increased to eight in January 2012. The following
working groups were added to the FFETF at that time: (6) the Oil and Gas Price Working Group,
(7) the Consumer Protection Working Group, and (8) the Residential Mortgage-Backed Securities
Working Group.




                                                4

       The FFETF’s Mortgage Fraud Working Group (MFWG) was created as one of
the five working groups because mortgage fraud was considered a priority area for
the President and the Department. The MFWG is comprised of high-level federal
and state executives and is co-chaired by the Assistant Attorney General of DOJ’s
Civil Division; a U.S. Attorney from the Attorney General’s Advisory Committee; the
Chief of the FBI’s Financial Crimes Section; the Inspector General of the
Department of Housing and Urban Development; and a representative from the
National Association of Attorneys General. According to its action plan, the primary
purpose of the MFWG is to increase enforcement in the area of mortgage fraud, and
to do so through greater coordination among law enforcement agencies, the
development and sharing of enforcement strategies, and training. The action plan
states that the MFWG has worked to expand and invigorate the 90 existing local
multi-agency mortgage fraud task forces and working groups located in USAOs
around the country, to increase both criminal and civil enforcement actions by
federal agencies in the near term, and to increase training and other resources
available to federal, state and local enforcement agencies. In 2012, the FFETF
established a mortgage fraud scorecard to track the Department’s mortgage fraud
efforts, including: the number of law enforcement training events conducted;
outreach to professional organizations; community outreach; and victim assistance.

DOJ Approach to Mortgage Fraud

       Beyond its leadership of the FFETF and the MFWG, the DOJ plays an
important role in combating mortgage fraud through criminal investigations and
prosecutions of individuals and entities that commit this type of fraud. DOJ also
has significant civil enforcement tools at its disposal that can help deter such
fraudulent activity.

       The DOJ Criminal Division’s Fraud Section, along with the USAOs,
investigates and prosecutes federal fraud offenses, including mortgage fraud. In
addition to its litigation responsibilities, the Criminal Division’s Fraud Section helps
implement criminal enforcement policy and provides advice, assistance, and
manpower to the USAOs. In FY 2010, the Criminal Division’s Fraud Section
received funding to fight financial institutional fraud, which includes mortgage
fraud. As shown in the following chart, it did not receive any additional funding or
support for financial institutional fraud activities in FYs 2009 or 2011.




                                            5

         Criminal Division Financial Fraud Funding & Resources
                              by Fiscal Year
        FY              2009          2010        2011        Total
    Funding               $0           $1.8        $0         $1.8
    Received
  (in millions)
 New Attorney              0            3           0           3
    Positions
   New Non-                0            2           0           2
    Attorney
    Positions
Source: DOJ Criminal Division

       In 2007, prior to the creation of the FFETF and the MFWG, the Criminal
Division created and the Fraud Section chaired a mortgage fraud working group as
a derivative of their Interagency Bank Fraud Enforcement Working Group. The
Criminal Division mortgage fraud working group continued in existence after the
creation of the FFETF’s MFWG.

       The Criminal Division working group meetings are regularly attended by
representatives from several DOJ components, including the Civil Division, EOUSA,
select USAOs, and the FBI. We were told that representatives from other federal
agencies and state bank regulators also attend the group’s meetings. According to
the Chair of the Criminal Division mortgage fraud working group, the working group
explores mortgage fraud issues, considers trends, and enables members to
network. The Criminal Division’s Mortgage Fraud Working Group similarly does not
have any performance metrics to measure its successes or progress towards
meeting its stated goals and objectives.

       Because of the apparent similarities between the MFWG and the Criminal
Division’s mortgage fraud working group, we asked about a possible duplication of
mortgage fraud efforts. According to the Chair of Criminal Division mortgage fraud
working group, the Criminal Division working group is attended mainly by mid-level
DOJ component managers while the MFWG is attended primarily by senior and
executive level management. The FFETF Executive Director concurred with this
assessment and explained that the FFETF MFWG has the ability to affect change at
a national level and is in a better position to do outreach, provide training efforts,
and conduct national summits. The Criminal Division working group is mainly used
to discuss trends and the status of cases, and to network at the operational level.
According to the Chair of the Criminal Division mortgage fraud working group, the
Criminal Division working group and the MFWG are complementary, although at
times there are parallels in their respective efforts to address mortgage fraud.

DOJ Criminal Enforcement Effort

      The FBI is the principal investigative arm of DOJ and has the authority and
responsibility to investigate mortgage fraud and refer such investigations to the


                                          6

USAOs for prosecution. Outside of the FBI, federal agencies such as the
Department of Housing and Urban Development Office of the Inspector General,
U.S. Postal Inspection Service, U.S. Secret Service, and the Federal Housing and
Finance Agency Office of the Inspector General also investigate mortgage fraud and
refer cases to the USAOs.

FBI Investigative Effort

       Primary responsibility for the FBI’s mortgage fraud program resides in the
Financial Institution Fraud Unit within the Financial Crimes Section of the Criminal
Investigative Division. The mission of the Financial Institution Fraud Unit is to
oversee the investigation of financial industry fraud schemes perpetrated by
individuals and criminal organizations that target financial institutions. As part of
its responsibilities, the Financial Institution Fraud Unit is designed to coordinate
efforts between FBI headquarters and its field offices.

        From fiscal years 2009 to 2011, Congress appropriated significant additional
funding to the FBI for the investigation of mortgage fraud cases and white collar
crime. This funding was intended to increase the number of agents dedicated to
mortgage fraud and white collar crime investigations and add to the existing
mortgage fraud task forces. According to an FBI budget official, the additional
funding listed in the following table was used exclusively to support mortgage fraud
investigations; however, the new agent positions may or may not have been used
exclusively to support mortgage fraud. The FBI official further told us that these
new agents were allocated to FBI field offices based on the level of mortgage fraud
activity occurring in each field office’s area of responsibility. The FBI official also
stated, however, that assignment of FBI casework in the field is driven by threat
level and therefore FBI agents in the field are typically assigned to work in a
program area (such as white collar crime) and generally are not directly assigned to
work specific types of cases; thus, over time, agents’ program area and case types
may shift as a threat changes. The FBI budget official added that historically, when
the FBI is appropriated funding for new special agent positions for the field, a ratio
of support positions (Clerical, Investigative, and Information Technology support)
are typically funded as well. These ratio support positions, although received
through a specific enhancement, do not necessarily work solely on certain types of
cases. Rather, their time may be spent supporting a myriad of FBI programs in the
field office to which they are assigned.




                                           7

                      FBI Mortgage Fraud and White Collar Crime
                          Funding & Resources by Fiscal Year 8
     FY                 2009         2010           2011                                Total
  Funding               $36.6        $79.7          $79.7                              $196.0
  Received
(in millions)
New Agents                25                 50                    81                    156
  New Non-                33                 93                   130                    256
    Agent
  Positions
Source: FBI

        We found that, despite public statements by the FFETF and the Department
about the importance of pursuing financial frauds cases, including mortgage fraud,
the FBI Criminal Investigative Division ranked Complex Financial Crimes as the
lowest of the six ranked criminal threats within its area of responsibility, and ranked
mortgage fraud as the lowest subcategory threat within the Complex Financial
Crimes category. 9 Additionally, we found mortgage fraud to be a low priority, or
not listed as a priority, for FBI Field Offices in the locations we visited, including
Baltimore, Los Angeles, Miami, and New York.

       Statistical Data

       FBI records show that the number of mortgage fraud cases opened from
2009 through 2011 declined in each subsequent year. FBI officials we spoke with
attributed this decline in part to enhanced underwriting standards among lenders
that resulted in a reduction in mortgage fraud associated with loan originations.
We found that FBI data also reflected decreases in FY 2011 for the number of FBI
special agents dedicated to mortgage fraud and the number of pending FBI
investigations. However, the statistics we received from the FBI show an increase
each year in the number of convictions, with figures nearly doubling from 2009 to
2010, and rising again slightly in FY 2011.




        8
          According to the FBI, these amounts reflect a combination of existing funding as well as
funds that were appropriated specifically to combat mortgage fraud.

       9
          The FBI Criminal Investigative Division prioritizes crime threats that are in its area of
responsibility. In 2011, there were six crime threat categories ranked in the following order: Public
Corruption, Southwest Border, Civil Rights, Violent Crime, Organized Crime, and Complex Financial
Crime. Under each category there are several subcategory program areas that were also prioritized.
Under Complex Financial Crime, which is ranked last, the subcategories are prioritized in the following
order: Corporate and Securities/Commodities Fraud, Health Care Fraud, and Mortgage Fraud.
According to the FBI, complex financial crimes such as bankruptcy fraud, credit card fraud, mass
marketing fraud, insurance fraud, money laundering, and other mail and wire fraud crimes are not
assigned a priority ranking.




                                                   8

                    FBI Mortgage Fraud Statistics by Fiscal Year
  FY         Agents    Cases       Pending       Information/                         Convictions 10
                      Opened   Investigations     Indictments

2009            300         1,771               2,794                    873                   555

2010            356         1,174               3,129                  1,565                  1,087

2011            325           599               2,691                  1,230                  1,118

Source: FBI

       According to various FBI officials, the mortgage fraud problem has evolved
and is waning. These officials believe that the number of investigations and
prosecutions will continue to decline in the current and subsequent fiscal years. As
mentioned earlier, in the early to mid-2000s, loan origination fraud was the most
common type of mortgage fraud scheme. However, following the decline of the
housing market tightened lending regulations led to a decrease in loan originations
and this caused the incidence of loan origination fraud to decline. According to the
former Deputy Director of the FBI, as lending standards tightened and foreclosures
rose, criminals began to focus their schemes on vulnerable homeowners facing
foreclosure.

        The information we obtained during our interviews with field level FBI Special
Agents was consistent with the data shown above. Although each of the FBI field
offices we visited had at least one squad, and in most cases multiple squads that
were tasked with investigating mortgage fraud, several Special Agents assigned to
these squads stated that mortgage fraud began to evolve as a threat in 2011 and
has generally diminished as a priority in their offices. According to some Special
Agents, the emerging foreclosure rescue schemes do not typically have high dollar
loss amounts like the loan origination scams of previous years, and such cases may
not meet certain USAO prosecutorial thresholds. We were told that these cases are
sometimes put into an unaddressed work file by the FBI in order to accumulate
sufficient fraudulent activity and dollar losses before presenting them to the USAO
for prosecution. 11 The Special Agents we spoke with said that accumulating

        10
          In the chart on page 17, we present EOUSA data that shows that EOUSA reported a smaller
number of mortgage fraud cases with a guilty disposition in each FY for the same time period. We did
not compare each case counted as a conviction by the FBI with the cases reported by EOUSA as
having a guilty disposition because each component classifies mortgage fraud cases differently in their
case management systems. However, we believe the discrepancies in the reporting between these
Department agencies is evidence that the Department currently does not have an accurate
understanding of its overall mortgage fraud effort, as we discuss in greater detail later in this report.
        11
            The unaddressed work files are a repository for significant mortgage fraud cases that would
be addressed but for the lack of adequate investigative resources or cases that require additional
information to open a full investigation. Field office personnel are reminded to conduct reviews of
unaddressed work files every 90 days to determine if these matters can be addressed as preliminary
or full investigations utilizing existing resources.


                                                   9

sufficient fraudulent activity and dollar losses can be a cumbersome and time
consuming process.

       In FY 2011, the FBI’s Financial Institution Fraud Unit conducted an analysis
of trends throughout the FBI field offices specific to the opening and closing of
mortgage fraud cases. The Financial Institution Fraud Unit analysis identified two
areas of concern: (1) significant mortgage fraud cases were not being opened
because of a lack of adequate resources to open them, and (2) significant mortgage
fraud cases were being closed due to the diversion of the resources which had been
assigned to address these cases to higher priority matters. 12

       According to the Financial Institution Fraud Unit analysis, from FY 2009
through FY 2011, FBI field offices opened over 3,000 new mortgage fraud cases.
During this same time frame, the total number of mortgage fraud Suspicious
Activity Reports (SARs) generated by federally insured financial institutions
exceeded 231,000. 13 We were told that SARs can provide the FBI with tips and
leads regarding mortgage fraud, but does not necessarily provide sufficient
information to initiate an investigation. As seen in the following table, per the FBI,
the number of mortgage fraud SARs increased from 67,190 in FY 2009 to 93,508 in
FY 2011. 14


                     Mortgage Fraud Suspicious Activity Reports
                            (SARs) Filed by Fiscal Year
                     FY                 SARs Filed
                    2009                  67,190
                    2010                  70,533
                    2011                  93,508
                  Source: FBI

      According to the FBI, the Financial Institution Fraud Unit does not equate
each SAR filing as predication to initiate an investigation. When multiple SARs have
associations to the same fraud group, they would be combined into one
        12
            Under 1 Funded Staff Level (FSL), FBI field offices were asked to reprioritize many of their
investigations based on current and emerging threats in their area of responsibility. This will
necessarily result in a reduction of resources being allocated to what are considered lower priority
threats. As a result, in some instances resources previously devoted to mortgage fraud may be re­
directed to higher priority investigations.

          13
             The purpose of the Suspicious Activity Report (SAR) is to report known or suspected
violations of law or suspicious activity observed by financial institutions subject to the regulations of
the Bank Secrecy Act. A SAR is considered a mortgage fraud-related when the financial institution
filling out the form indicates “mortgage loan fraud” as a characterization of the type of suspicious
activity. As of April 2013, the electronic version of the SAR includes a section on mortgage fraud.

        14
            According to officials at FinCEN, the increase in the number of mortgage fraud SARs does
not necessarily correlate to an increase in the level of mortgage fraud activity. The FinCEN officials
said that the increase in mortgage fraud SARs simply could reflect an improvement in the ability of
financial institutions to identify potential issues related to mortgage fraud that previously existed.




                                                    10

investigation. FBI officials stated that the FBI is unable to address every potential
allegation of mortgage fraud but attempts to work higher level cases which involve
multiple victims, higher dollar losses or fraud activity, and organized groups
involved in fraud. Additionally, some SARs may not provide sufficient information
to open an investigation, or they may relate to an individual home mortgage which
the FBI would not address. However, the sheer volume of mortgage fraud SARs as
compared to actual case initiations during this time frame may indicate significant
mortgage fraud cases were going unaddressed, according to the Financial
Institution Fraud Unit.

       The Financial Institution Fraud Unit also determined that in FY 2011 a total of
747 mortgage fraud cases were closed by FBI field offices without prosecution. The
Financial Institution Fraud Unit conducted a detailed analysis of cases closed during
this time frame and concluded that the majority of cases closed by the FBI in FY
2011 were closed with minimal or no investigation conducted.

       We concluded, based on the statistics provided by the FBI along with the
relatively low ranking that mortgage fraud received on various FBI priority lists that
mortgage fraud did not receive a priority ranking commensurate with DOJ’s
statements related to mortgage fraud during the period of our review. We further
found, based on our discussions with FBI officials that the priority level for
mortgage fraud investigations within the FBI will likely diminish in the coming
years.

       FBI Undercover Operations

       Mortgage fraud has traditionally been investigated by the FBI reactively, that
is after the crime has already been committed. We were told these reactive
investigations are labor intensive and may involve voluminous document reviews
and numerous witness interviews. However, reactive investigations are not the
only tool available to the FBI to investigate mortgage fraud. According to the FBI’s
Financial Institution Fraud Policy Implementation Guide, some mortgage fraud
investigations can be more effective with the use of proactive undercover
operations (UCO), which include the use of Group I and Group II UCOs. 15
According to FBI documents we reviewed, proactive investigative measures not only
result in the collection of valuable evidence and intelligence, they provide an
opportunity to apprehend criminals in the course of committing their crimes, thus
reducing the potential loss to individuals and financial institutions.




         15
            A Group I UCO is defined as any FBI UCO which must be approved by FBI HQ because the
contemplated undercover activity involves a reasonable expectation that one or more of the sensitive
circumstances listed in the Attorney General’s Guidelines for Undercover Operations (AGG-UCO) may
occur. A Group II UCO is an investigation which does not involve any of the sensitive circumstances
enumerated in the AGG-UCO and which does not require FBI HQ approval. A Group II UCO must be
instituted whenever an undercover employee engages in more than five substantive contacts with an
individual or organizational associates and/or members per investigation.




                                                 11

       During FY 2011, the Financial Institution Fraud Unit developed a strategy to
target ongoing loan origination mortgage fraud schemes by using a national
platform UCO. In June 2011, the Financial Institution Fraud Unit sent an electronic
communication (EC) to all FBI field offices informing them of the approval this
operation. This UCO sought to lessen the administrative burden of initiating an
undercover operation by streamlining the process.

        According to Financial Institution Fraud Unit, the majority of their
communications with the field are with field supervisors and program coordinators.
The Financial Institution Fraud Unit provided several electronic communications
which were disseminated to every field office with directions on how to utilize the
platform UCOs. In addition, several secure video teleconferences were held with
field offices regarding utilization of UCOs. However, during our review, we were
told that there was inadequate coordination and communication between FBI
headquarters and FBI field offices related to implementation and execution. Some
Special Agents at the field offices we visited reported that mortgage fraud
investigations did not easily lend themselves to UCOs, despite the push from the
Financial Institution Fraud Unit to initiate mortgage fraud UCOs. According to
several Special Agents, the Financial Institution Fraud Unit did not provide enough
specific direction or training on how to commence a mortgage fraud UCO. In
another instance, we learned that Special Agents assigned to investigate mortgage
fraud were unaware of the operational platform. 16

       Based on the information we received at the field offices we visited it appears
that the Financial Institution Fraud Unit provided guidance on initiating a mortgage
fraud UCO to field supervisors and program coordinators; however, the Special
Agents assigned to investigate mortgage fraud were unaware or uninformed.
Therefore, we recommend that the FBI revisit its existing guidance on initiating a
mortgage fraud UCO and ensure that this training reaches all levels within the field.

       Target Intelligence Packages

        In September 2009, the FBI established the Financial Intelligence Center
(FIC) to provide tactical analysis of intelligence datasets and financial databases. 17
The FIC used evolving technology and data exploitation techniques to create target
intelligence packages (TIP) to identify the most egregious criminal enterprises and
to enhance current criminal investigations. To create mortgage fraud TIPs, the FIC
utilized approximately 24 unique databases which ranged from open source
information, other government agency systems, and commercial sites. The FIC
worked jointly with the Financial Institution Fraud Unit to assist FBI field offices by
creating mortgage fraud targeting packages. In FY 2010 and 2011, the FIC
produced and disseminated 61 mortgage fraud TIPs to the field offices.

       16
           The FBI’s oversight of these mortgage fraud undercover operations (such as the approval
process, accounting, and use of funds) were beyond the scope of this audit.

         17
            According to the FBI, in September 2012, the FIC was disbanded. It has been replaced by
intelligence fusion cells within FBI’s Criminal Investigative Division.




                                                12

       As part of this audit, we reviewed 15 of these TIPs, and based on our review,
only 1 of the 15 TIPs that were disseminated to the field offices we visited resulted
in the initiation of a mortgage fraud investigation. According to the former FIC Unit
Chief, some of the TIPs did not result in investigations being opened by the FBI field
offices that received them because of a lack of time and resources. This position
was echoed by special agents and supervisors we interviewed in the field offices we
visited, who stated that their offices already had a significant backlog of
unaddressed and pending mortgage fraud investigations. We also learned that
some TIPs either duplicated an already existing investigation in the field office or
were not as monetarily significant as other existing investigations. The Chief of the
FBI’s Financial Crimes Section also acknowledged that many of the mortgage fraud
TIPs did not result in the opening of investigations. While the TIPs did not often
result in the opening of mortgage fraud investigations, the receiving field offices we
interviewed believed that the TIPs were comprehensive and well-written.

       At the conclusion of this audit we learned that due to limited resources, the
FBI no longer produces TIPs for mortgage fraud. We believe this is a further
indication that mortgage fraud is a declining priority for the Department.

EOUSA and USAO Prosecutorial Effort

       Within DOJ, the 94 USAOs serve as the nation’s principal litigators who are
primarily responsible for prosecuting individuals who violate U.S. criminal laws. The
Executive Office for U.S. Attorneys (EOUSA) acts as a liaison between DOJ and the
U.S. Attorneys by forwarding direction and guidance from the Attorney General and
Deputy Attorney General to the USAOs. The EOUSA provides management
oversight and administrative support to the USAOs, which includes allocating
resources and maintaining resource related and casework databases. However,
each U.S. Attorney operates with a significant level of autonomy and EOUSA does
not instruct individual USAOs how to focus or prioritize their prosecutorial efforts.

       Within the EOUSA, the Office of Legal and Victim Programs provides the
USAOs with legal and programmatic guidance and support in numerous program
areas. Two AUSAs on detail to the Office of Legal and Victim Programs serve as the
White Collar Crime Coordinators for EOUSA. The White Collar Crime Coordinators
are responsible for assisting EOUSA and the USAOs in assessing and administering
their white collar crime programs, which include mortgage fraud.

        To enhance efforts in the areas of mortgage fraud, bankruptcy, affirmative
civil enforcement, and white collar crime, Congress appropriated EOUSA and the
USAOs with additional funds and manpower resources. The following chart shows
the amount of funding appropriated, as well as new attorney positions and new
non-attorney positions created for each fiscal year to address financial fraud.




                                         13

         EOUSA and USAO Financial Fraud Funding & Resources
        FY           2009          2010       2011        Total
    Funding       $12,400,000   $7,500,000      $0     $19,900,000
    Received
 New Attorney          60           35           0          95
    Positions
   New Non-            18            8           0          26
    Attorney
    Positions
Source: EOUSA

      Data on Mortgage Fraud Prosecutions

      We sought to evaluate the number of criminal prosecutions that the DOJ had
undertaken in light of the additional funding provided by Congress. EOUSA
maintains the Legal Information Office Network System (LIONS), which is the case
management and resource management system for the 94 USAOs, as well the
U.S. Attorneys’ Monthly Resource Summary Reporting System (referred to as the
USA-5).

        According to EOUSA officials, LIONS is a tool used to assist the USAOs in
assessing staff caseloads and managing their offices. These EOUSA officials also
stated that the LIONS system was not designed as a statistical system and
therefore can be an imperfect tool for responding to specific, detailed inquiries
seeking comprehensive, uniform nationwide data sought for purposes other than
case management. Despite these limitations, EOUSA officials said that LIONS is
frequently used to provide the data used for the Attorney General's Annual Report,
the United States Attorneys' Annual Statistical Report, and numerous requests for
statistical data from the Office of Management and Budget, Congress, and the
public at large.

      In a July 2008 EOUSA memorandum, it was noted that Congress, regulatory
agencies, industry groups, and the general public, were increasingly interested in
DOJ mortgage fraud prosecutions. The EOUSA memorandum stated that it had
been difficult for DOJ to demonstrate the extent of USAOs’ mortgage fraud activities
and progress because mortgage fraud cases were not tracked separately in LIONS.
Therefore, the memorandum announced the creation of a new mortgage fraud code
in LIONS which covered all types of mortgage fraud schemes in order to more
accurately track mortgage fraud prosecutions.

       Nonetheless, during our review, AUSAs in every district we contacted
informed us that the information provided in LIONS should not be considered a
complete or reliable indicator of the work their offices had done to address
mortgage fraud, adding that there were instances of underreporting and
misclassification of mortgage fraud cases. It was explained that mortgage fraud
cases are often coupled with other criminal activities, such as organized crime or
identity theft. We were told that, when initiating a case file in LIONS, an AUSA may



                                        14

fail to include the mortgage fraud code if it is not the leading charge in a case. In
addition, several AUSAs said that in some instances active cases that originated
prior to the creation of the mortgage fraud code might not have been re-coded.

        According to EOUSA, AUSA’s are required to certify the accuracy of their
LIONS case information biannually. In addition, EOUSA officials told us that its
Evaluation and Review Staff has a management standard addressing data entry into
LIONS. This management standard is reviewed every three years during onsite
legal evaluations. EOUSA told us at the conclusion of the audit that given these
certification procedures, LIONS is a valuable measure of the Department’s
prosecution efforts for a wide array of cases, including mortgage fraud. While we
think these safeguards are important, we note that the data entered into LIONS can
be accurate while not necessarily being complete. In addition, as we describe
above, EOUSA officials told us during the audit that the LIONS system was not
designed as a statistical system and therefore can be an imperfect tool for
responding to specific, detailed inquiries seeking comprehensive, uniform
nationwide data sought for purposes other than case management.

      USAOs utilize a form called USA-5 to record time spent by USAO personnel
on various categories of matters or cases they have worked on. USA-5 does not
have a category specifically for mortgage fraud. Instead, mortgage fraud time is
captured in a broader category under financial institution fraud. This category
encompasses several program areas, in addition to mortgage fraud. As a result,
EOUSA was unable to determine and provide us information about how much
attorney work time has been dedicated specifically to mortgage fraud.
Furthermore, several AUSAs we spoke with cautioned us about the accuracy of
USA-5 data because they did not believe that every USAO was properly attributing
attorney time spent working on various program categories.

      Until DOJ and EOUSA definitively address the shortcomings of these systems
to adequately track mortgage fraud cases and the attorney time spent working on
them, the data generated by these systems will continue to be suspect and the
Department cannot accurately evaluate USAOs efforts and accomplishments in
addressing this crime.




                                          15

      Number of New Mortgage Fraud Cases Filed

        Recognizing the limited nature of the LIONS data, we requested from EOUSA
the available data related to criminal mortgage fraud prosecutions opened from
fiscal year 2009 through 2011. USAO criminal cases originate from various
investigative agencies such as the FBI, the U.S. Department of Housing and Urban
Development, Office of the Inspector General (HUD-OIG), the U.S. Secret Service,
the U.S. Postal Service, and others. The data presented in the following table
shows that from FY 2009 to FY 2010, new mortgage fraud cases filed increased by
over 150 percent, a figure that the Department credited to greater resources
dedicated to the program area. However, the number of new cases filed decreased
in FY 2011. According to the AUSAs we interviewed, the FY 2011 decrease may be
attributed to competing priorities and a shift in the type of mortgage fraud
schemes.

                 Criminal Mortgage Fraud New Cases Filed by
                                 Fiscal Year
                    FY                New Cases Filed
                    2009                         248
                    2010                         632
                   2011                          486
              Source: EOUSA

       Of the five USAOs we visited, all five had an AUSA who was assigned to be
the Office’s mortgage fraud coordinator. We found that, in all but one office, AUSAs
were not dedicated to prosecuting mortgage fraud and instead handled dozens of
case that covered multiple program areas within their criminal section. According
to many of the AUSAs we interviewed, several of the program areas they handled
were at one time considered a priority, a current DOJ effort or initiative, or
individual U.S. Attorney preference. These AUSAs reported that the result has been
a priority fatigue.

       Many of the AUSAs we interviewed told us, similar to what we had heard
from FBI officials, that there has been a shift over the past decade in the most
common type of mortgage fraud scheme, from loan origination to foreclosure
rescue. The victims of loan origination fraud are almost always the lenders;
however, in foreclosure rescue, the victims are innocent homeowners who have lost
their homes or have been forced to file for bankruptcy as a result of these fraud
schemes.

       To target the perpetrators of foreclosure fraud, the FBI Financial Institution
Fraud Unit developed a strategy for a national initiative, which started as a pilot in
an FBI Field Office. In the initiative’s strategy document, the FBI acknowledged the
challenges in prosecuting this type of fraud by stating that foreclosure rescue
schemes are severely hindered by the monetary thresholds established in each
judicial district. The document continued to explain that these thresholds limit
prosecutions of mortgage fraud cases to high dollar loss cases and therefore would


                                         16

require that hundreds of victims be identified before an investigation targeting
distressed homeowners would be prosecuted. Based on our interviews, none of the
AUSAs we spoke with provided us with documentation supporting specific dollar
thresholds. Some USAOs stated that they do not have dollar thresholds; although,
their local FBI field offices believed that such thresholds were applied as reflected in
the FBI national initiative document.

       We believe that strictly applying monetary thresholds may not always be the
best way to evaluate cases. Although distressed homeowner fraud cases may
involve low dollar losses, we were told that they can cause significant harm to
communities throughout the United States. While we understand that USAO
thresholds are utilized on a case by case basis, because such thresholds are treated
as a limiting factor by the FBI in pursuing fraud cases, we believe a consequence of
these USAO thresholds could be a reduction in certain cases brought by the FBI or
other law enforcement agencies. Accordingly, we recommend that, through
EOUSA, DOJ direct all USAOs to periodically assess any monetary thresholds
applied to mortgage fraud cases to ensure they are reasonably based upon the
threat within their respective jurisdictions and adequately allow for non-monetary
harms that result from mortgage fraud schemes, as well as ensure that law
enforcement agencies in their respective districts have a clear understanding of any
limiting factors being applied to such cases.

       Tracking Prosecutorial Outcomes

       As the following chart shows, in FY 2009 and FY 2011 USAOs reported an
increase in both the number of defendants in terminated cases and the number of
defendants with a guilty disposition. For the three fiscal years, the USAOs reported
a guilty disposition rate of approximately 93 percent.


              Criminal Mortgage Fraud Case Statistics by Fiscal Year
         FY         Cases            Defendants         Defendants             Guilty
                  Terminated          in Cases           with Guilty        Disposition
                                     Terminated         Disposition 18         Rate

       2009            100                245                 227               92.7%
       2010            284                536                 497               92.7%
       2011            419                832                 770               92.5%
     Source: EOUSA


         18
            In the chart on page 9, we present FBI data that shows that the FBI reported a greater
number of mortgage fraud convictions in each FY for the same time period. We did not compare each
case counted as a conviction by the FBI with the cases reported by EOUSA as having a guilty
disposition because each component classifies mortgage fraud cases differently in their case
management systems. However, we believe the discrepancies in the reporting between these
Department agencies is further evidence that the Department currently does not have an accurate
understanding of its overall mortgage fraud effort.


                                                17

       This disposition information does not identify the role of the defendants
involved in these mortgage fraud cases. The data does show, however, that the
number of defendants with a guilty disposition increased steadily over FY 2009 to
2011.

       Mortgage fraud cases often involve a number of defendants with varying
levels of complicity. Generally, mortgage fraud schemes require the participation,
or at least acquiescence, of a number of players, such as straw buyers, real estate
agents, appraisers, mortgage brokers, and closing attorney/agent. The LIONS
database, which as discussed above was not intended to act as a data gathering
tool, does not indicate whether mortgage fraud prosecutions were directed against
the individuals responsible for organizing the fraud or against secondary actors,
such as straw buyers.

        Due to the importance of this issue and public interest in mortgage fraud, we
believe that DOJ should take steps to track additional information on its mortgage
fraud efforts, such as the position or business title of defendants. The U.S.
Attorney for the Southern District of New York has testified before the U.S.
Sentencing Commission that “mortgage fraud schemes cause greater harm, are
more widespread, and more severely undermine the confidence of the public in the
real estate and mortgage industry when industry professionals are involved. Real
estate and mortgage professionals should be trusted gatekeepers of the system,
not facilitators of fraud. As such, they should especially be deterred from using
their insiders' knowledge to exploit weaknesses in the industry and vulnerabilities in
the public.” Therefore, capturing the position or level of an individual defendant
would allow DOJ to better understand and assess the effectiveness of its mortgage
fraud enforcement efforts and performance. Prosecuting higher level defendants
may also deter further mortgage fraud on a broader organizational or industry-wide
basis, rather than enforcement against individual straw purchasers.

       With a better understanding of the overall effort and performance DOJ can
better respond to requests for information and better educate the public about its
efforts to combat mortgage fraud. For example, in March 2012, in a letter to the
Attorney General, Senator Charles Grassley asked DOJ to provide specific
information on its mortgage fraud cases, including the business title of the
defendants convicted. While DOJ responded to the Senator’s request, it was unable
to provide information on the business title of the defendant convicted because of
these system limitations. Accordingly, we recommend that DOJ and EOUSA
develop a method to capture additional data that will allow DOJ to better
understand the results of its efforts to investigate and prosecute mortgage fraud.

      Local FBI and USAO Coordination

       We found that in some of the locations we visited, communication and
coordination between the local FBI field office and the USAO was lacking as it
related to addressing, prioritizing, and collaborating to effectively combat mortgage
fraud. For example, in one of the locations we visited, the FBI field office serves
two different USAOs. During our visit, we determined that a strained relationship


                                         18

existed between the FBI field office and one of the two USAOs regarding mortgage
fraud cases. According to several FBI Special Agents we spoke with, they believed
this particular USAO had not handled mortgage fraud cases in a timely manner and
as a result, several of the field office white collar crime squads preferred not to
refer cases to them. However, the Criminal Chief in this USAO provided a much
different assessment and stated that he was unaware of any problem and that his
office had no known coordination issues with the local FBI field office.

       In contrast, officials from the same FBI field office reported that they had a
good working relationship with the other USAO they serve. Yet, AUSAs from that
USAO stated that their district had turned to other investigative agencies for
mortgage fraud cases, citing the local FBI field office’s lack of interest in
investigating mortgage fraud.

        In another location, an official from the USAO and an FBI official from the
local field office readily admitted that the communication and the coordination
between their offices on mortgage fraud and other matters had been difficult and
needed improvement. The same USAO official also expressed concern about the
lack of experience and expertise of the Special Agents handling mortgage fraud
cases for the local FBI field office.

       In contrast, one of the locations we visited appeared to be exemplifying good
communication and coordination related to combating mortgage fraud. In this
location the USAO and the local FBI field office are a part of the local Mortgage
Fraud Strike Force. 19 According to FBI and USAO officials from this location, this
strike force has acted as a resource multiplier, enabling a dedicated staff of AUSAs,
FBI Special Agents, as well as other investigative agencies, to communicate and
coordinate mortgage fraud efforts jointly and frequently. As exhibited in the
following chart the USAO with the strike force – USAO A – handled 164 mortgage
fraud cases in FYs 2009 through 2011.

              USAOs New Mortgage Fraud Cases Filed by Fiscal Year
    FY       USAO A              USAO B          USAO C         USAO D        USAO E         Total
   2009         51                  6              41             14            16            128
   2010         66                 12              35             24            25            162
   2011         47                 14              11             18            27            117
   Total       164                 32              87             56            68            407
      Source: EOUSA

        We believe that coordination and communication issues between local FBI
field offices and USAOs, such as those described above, can hinder mortgage fraud
investigations and prosecutions and that continued efforts should be made to
improve lines of communication and coordination in these offices and throughout
the country.

       19
           According to the Department, during the audit period USAOs and the local FBI field offices
participated in over 90 working groups and task forces dedicated to combating mortgage fraud.




                                                 19

DOJ Civil Enforcement Effort

       Criminal prosecution is not the only tool available to DOJ in its fight against
mortgage fraud. Civil mortgage fraud cases filed by DOJ have led to the imposition
of monetary judgments and fines against those who have committed mortgage
fraud by defrauding the federal government. Civil tools and remedies, such as the
False Claims Act or the Financial Institution Reform, Recovery, and Enforcement Act
of 1989 (FIRREA), provide DOJ with various options that can be used to pursue
those responsible for mortgage fraud schemes and recover government funds. 20

        One of the responsibilities of the DOJ Civil Division is bringing lawsuits on
behalf of the United States to recoup money lost through fraud, loan defaults, and
the abuse of federal funds. Within the Civil Division, the Commercial Litigation
Branch, Fraud Section (Civil Fraud Section) works with USAO civil litigators
nationwide to litigate cases involving financial fraud against the federal
government. More recently, the Civil Division expanded the Consumer Protection
Branch responsibilities to include consumer-focused mortgage fraud investigations
and prosecutions. The Consumer Protection Branch, although within the Civil
Division, works on both civil and criminal matters. These matters can include the
full range of mortgage fraud schemes described throughout this audit, from
origination fraud to foreclosure rescue schemes. The remedies that the Consumer
Protection Branch would seek might include incarceration, criminal fines, forfeiture,
restitution to victims, and reforms of an organization’s operations.

       In 2011, the then-Assistant Attorney General of the Civil Division told
Congress that mortgage fraud was a top priority of the Department, because of the
public dollars at stake. In speaking at an outside conference, the then-Assistant
Attorney General added that the Civil Division increased its efforts to curb mortgage
fraud through greater enforcement and increased prevention efforts to help educate
consumers about mortgage fraud and how to avoid it.

       In FY 2010, the Civil Division received additional funding and new positions
to specifically address financial rescue schemes which are considered a form of
mortgage fraud. The Civil Division did not receive any additional mortgage fraud
related funding or new positions for FY 2011.




      20
           31 U.S.C. §§ 3729–3733 (rev. 2009) and Pub. L. No. 101-73 103 Stat. 183 (1989).


                                               20

           Civil Division Financial Rescue Funding & Resources
                               by Fiscal Year
        FY               2009           2010       2011        Total
    Funding                $0        $10,000,000     $0     $10,000,000
    Received
 New Attorney               0             87          0          87
    Positions
   New Non-                 0             31          0          31
    Attorney
    Positions
Source: DOJ Civil Division

Civil Enforcement Data

       Civil mortgage fraud cases are generally investigated by HUD-OIG, whose
primary focus is the fraudulent underwriting of Federal Housing Administration
(FHA) insured loans. The Civil Fraud Section, in conjunction with HUD-OIG, has
coordinated several initiatives to recover misspent FHA insurance funds from
lenders that acted with reckless disregard when underwriting loans guaranteed by
FHA insurance. To achieve these efforts, the Civil Fraud Section has relied upon the
investigative resources of HUD-OIG as well as their own limited investigative
resources which include a handful of investigators and auditors.

        In July 2011, Project High Default Lender was initiated by HUD in connection
with the Civil Division and provided 84 USAOs with lender default data for potential
civil investigations. A memorandum from the Acting HUD Inspector General, along
with lender default data, and contact information for HUD-OIG personnel in each
district, was provided to USAOs to allow them to determine from the data whether
civil investigations should be opened. Approximately 40 civil investigations were
opened as a result of this effort.

       To better understand the results of this initiative as well as the overall civil
efforts of the USAOs, we requested statistical data from the Civil Division and
EOUSA. We received statistical data from the Civil Division about its mortgage
fraud cases. All of this data reflected cases that were worked jointly by the Civil
Division with the USAOs. We did not receive data from EOUSA because EOUSA
does not specifically code cases that involve mortgage fraud. Rather, the LIONS
case management system has a code for “Fraud” and a subcode for “Financial
Institution Fraud,” which the LIONS user manual states should be used in any civil
action involving financial institution fraud, including mortgage fraud or foreclosure
rescue schemes, as well as penalties involving financial institutions, whether
affirmative or defensive. 21 As a result, the Office of Legal and Victim Programs’
Counsel told us that EOUSA cannot identify which civil cases were specifically
mortgage fraud cases based solely on the use of this subcode.

       21
          Affirmative Civil Enforcement refers to filing civil lawsuits on behalf of the United States.
The purpose of these civil actions is to recover government money lost to fraud or other misconduct.
Defensive Civil Litigation refers to cases that defend the United States.


                                                  21

       Without specific data related to DOJ’s civil enforcement efforts, DOJ cannot
easily understand and evaluate its overall civil efforts to address mortgage fraud.
As we noted above, we believe that due to the high level of interest in DOJ’s
mortgage fraud efforts, DOJ should develop a method to better capture its overall
mortgage fraud effort. Therefore, we recommend that DOJ and EOUSA develop a
method to readily identify civil mortgage fraud cases.

Civil Enforcement Coordination and Resource Limitations

        We were able to review civil mortgage fraud case data that was provided to
us directly from the USAOs we visited. Overall, we found that two of the five
district USAOs we visited did not file any civil mortgage fraud cases between FYs
2009 through 2011. The remaining three offices provided us with a summary of
each mortgage fraud civil case filed along with other related information, including
the amount recovered. From our limited review of these civil cases, approximately
$1.5 billion of fraudulently-obtained government taxpayer funds were recovered as
a result of the efforts of these offices. We found that the USAOs that had filed
multiple civil mortgage fraud cases had good working relationships with their local
HUD-OIG office, and had other resources available in their offices such as an in­
house auditor and contracted investigative assistance.

       An April 2010 memorandum from the Assistant Attorney General for the Civil
Division acknowledged that HUD-OIG is the most frequent investigative partner for
civil mortgage fraud case work, but is not the only agency that can provide
assistance. The memorandum encouraged U.S. Attorneys to consult with the FBI
about potential civil mortgage fraud matters and investigative resources. However,
while USAO officials we interviewed said that FBI investigative support would be
beneficial, they recognized that the FBI’s primary focus is national security and
criminal investigations. According to several USAO officials, civil investigations and
resulting referrals from the FBI are limited. FBI officials informed us that they do
not actively pursue civil cases, but if a civil matter arises during an investigation it
will be passed along to the appropriate authority.

        During our review, we also learned that a number of AUSAs conduct their
own investigations in addition to their principal duties as litigators. In some
instances, USAOs have hired full-time auditors or paid outside experts to assist in
data-mining and statistical efforts in an effort to generate civil casework. These
USAO officials reported success in using such outside assistance, but they also
continued to express the need for dedicated in-house investigators to assist with
civil enforcement efforts.

       In addition, the Civil Division Fraud Section worked with HUD-OIG to
determine effective ways to address fraudulent loan origination and servicing
practices in connection with the Direct Endorsement Lender Program administered
by the U.S. Department of Housing and Urban Development (HUD), Federal
Housing Administration, which insures single family mortgages.




                                          22

FFETF and DOJ Mortgage Fraud Prosecution Initiatives

       Since its creation, the FFETF’s MFWG has organized and completed two
national mortgage fraud initiatives: Operation Stolen Dreams and the Distressed
Homeowner Initiative. According to the MFWG, these initiatives involved a
coordinated effort by participating agencies to target particular mortgage fraud
schemes. Operation Stolen Dreams, which occurred between March 1, 2010, and
June 17, 2010, focused on criminal and civil enforcement activities involving a
broad array of mortgage fraud schemes. The Distressed Homeowner Initiative,
which was launched on October 1, 2011, targeted criminal activities that included
foreclosure rescue fraud, loan modification fraud, and similar crimes that victimized
distressed homeowners.

       Each sweep culminated with a FFETF press release as well as a national press
conference where the Attorney General highlighted the threat posed by mortgage
fraud and demonstrated the success of the initiative by providing the sweeps’
results. In connection with this audit, we reviewed the results of the Distressed
Homeowner Initiative.

Distressed Homeowner Initiative

       On October 9, 2012 the FFETF issued a press release and held a press
conference, led by the Attorney General and joined by the Secretary of HUD, the
FBI Associate Deputy Director, the Chairman of the Federal Trade Commission, and
the HUD Inspector General, to publicize its most recent mortgage fraud initiative
called the Distressed Homeowner Initiative. 22 During the press conference, the
Attorney General announced that the initiative, launched by the FBI on October 1,
2011, resulted in 530 criminal defendants being charged, including 172 executives,
in 285 criminal indictments or informations filed in federal courts throughout the
United States in the 12 month period between October 1, 2011, and September 30,
2012. According to the Attorney General’s statements at the press conference,
these cases involved more than 73,000 homeowner victims and total losses by the
victims estimated at more than $1 billion. The Attorney General also announced
that 110 federal civil cases were filed against over 150 defendants for losses
totaling at least $37 million, and involving more than 15,000 victims. Similar
information was included in the Department’s press release.

       Concern Over the Accuracy of the Reported Statistics for the Distressed
       Homeowner Initiative

       Shortly after the Department’s October 9, 2012, press conference we
requested a meeting to discuss the results of the Distressed Homeowner Initiative
in greater detail with Department and FBI officials. We also requested any



       22
          See Appendix IV for the Attorney General’s statement at the October 9, 2012, press
conference on the Distressed Homeowner Initiative.


                                                23

documentation that would support the statistics presented at the press conference
by the Attorney General.

        We were told that the FBI was responsible for soliciting, gathering, and
collecting the data from the participants involved in the Distressed Homeowner
Initiative, which included various federal, state, and local agencies. To collect the
data, the FBI provided an electronic spreadsheet that contained multiple columns of
requested data to each of the participating agencies to complete and return to the
FBI. The FBI accepted the completed spreadsheets as submitted, and other than
limited checking for possible data duplication, the FBI did not perform any
additional vetting of the data. FBI officials stated that there was too little time and
resources available to allow for vetting of the data. FBI officials told us that it
trusted the various agencies to verify their information prior to submission and
assumed that the agencies were accurate in their reporting of the information.
Once all of the spreadsheets were submitted by the participating agencies, the FBI
incorporated the raw data into a summary spreadsheet which tallied the results of
the sweep. On October 5, 2012, 4 days before the FFETF press conference, the FBI
submitted this summary spreadsheet to the Department through the Executive
Director of the FFETF. The FBI officials we spoke with said that it did not provide
any accompanying language regarding the information.

        The Press Secretary in DOJ’s Office of Public Affairs (OPA) who was
responsible for issuing the press release related to the Distressed Homeowner
Initiative told us that the Executive Director of the FFETF contacted her a few
months before the end of FY 2012 to initiate plans for public disclosure of the
sweep’s outcome. After that initial contact, the Press Secretary participated
regularly in meetings with the MFWG members, including the FBI, regarding the
sweep. During those meetings, the participants agreed that that the Distressed
Homeowner Initiative would only report on indictments that occurred during FY
2012 that were specifically distressed homeowner-related crimes.

       According to the OPA Press Secretary, the FBI’s summary spreadsheet,
submitted on October 5, 2012, contained several data categories of information
related to the Distressed Homeowner Initiative. These categories included:
number of defendants, number of defendants categorized as executives, number of
informations and indictments, number of victims, and estimated losses. The OPA
Press Secretary inserted this information into a draft press release and then
provided the draft to the MFWG participants for review. According to the OPA Press
Secretary, in response, several of the participants provided additional language,
edits, and comments on the press release, which were incorporated into the final
version. The FBI officials we first spoke with stated that the FBI did not review the
Department’s press release prior to its issuance. However, the FBI later informed
us at the conclusion of the audit that an FBI official did review the press release but
did not propose any edits to the figures.

        We were told that, following the Attorney General’s press conference, DOJ
officials became concerned with the accuracy of the reported statistics. The
Department received multiple press inquiries asking for support for the statistics,


                                          24

including a listing of the cases referenced in the press release and at the press
conference. The OPA Press Secretary said she immediately attempted to obtain
from the FBI a list of the cases that supported the spreadsheet that the FBI
previously had provided to the Department, but was unable to do so for more than
a month after the press conference. According to the OPA Press Secretary, the FBI
indicated that it never intended to release a complete list of case names. At the
conclusion of the audit, the FBI clarified and stated that the delay resulted from its
understanding that the complete list would be publicly released, and therefore had
to be redacted to ensure that law enforcement sensitive information (including
names that would reveal ongoing undisclosed investigations) was not
inappropriately disclosed.

       The day after the press release was issued, the OPA Press Secretary
participated in a conversation with FBI officials and the Executive Director of the
FFETF regarding concerns that had been raised about the accuracy of the statistical
information included in the press release. During this meeting, an FBI official
stated that the information provided to OPA included the results of criminal
enforcement actions that were filed prior to the beginning of FY 2012, which was
contrary to the earlier agreement about the reporting of only FY 2012 indictments.

      On November 13, 2012, the FBI provided a case list it had compiled for the
sweep to the Executive Director of the FFETF and the OPA Press Secretary. The
Executive Director of the FFETF and the OPA Press Secretary worked together in an
attempt to verify a small sample of the cases but were unsuccessful. As a result,
OPA and the FFETF determined that the listing of cases could not be provided to the
media as requested.

        Due to the inaccuracies found during their sample review of cases, the
Executive Director of the FFETF, the OPA Press Secretary, and a small review team
initiated a complete case review of all the data provided by the FBI and reported
publically in the press release. Based on the results of that review, the Executive
Director of the FFETF stated to us that numerous significant errors and inaccuracies
existed with the information that was reported publicly. For example, multiple
cases were found to be included in the reported statistics that were not considered
distressed homeowner-related fraud. Also, the review found that a significant
number of cases were included in the initiative with indictments prior to the FY
2012 timeframe. According to the Executive Director of the FFETF and the OPA
Press Secretary, at this point they had no confidence in the figures reported at the
press conference. Nevertheless, we found that the Department continued to cite
these seriously flawed statistics in mortgage fraud press releases that it issued in
the ensuing months.

        We obtained the FBI’s summary spreadsheet that was provided to the OPA
for the development of the press release, as well as the supporting data gathered
by the FBI from the agencies that participated in the Distressed Homeowner
Initiative. Based on our review of the supporting data for the summary
spreadsheet, we found what we believe to be inconsistencies with the supporting
data and how that data was summarized. Specifically, we found that the electronic


                                          25

spreadsheet that was sent to the MFWG participants included a column labeled
“Executive?”. The FBI officials we spoke with said that this term was not defined
during data collection and what constituted an executive was subjective and left up
to the discretion of the participating agency submitting the data. We found that
MFWG participants included various responses for the column, which totaled to a
sum of 172, and that OPA used that sum in the press release as representing the
number of Executives prosecuted in connection with the initiative. However, we
found that 98 of the 172 executives referenced in the Department’s press release
were actually labeled as “Other,” “Unknown,” or “N” (apparently indicating “No”) in
the spreadsheets.


                  Distressed Homeowner Initiative Raw Data
                        Responses for Executive Column
             Participant Response                         Total
             for Named Executive
             Executive                                     26
             President                                     25
             Vice President                                 2
             CEO                                           14
             CFO                                            1
             Board Member/Director                          1
             Controller                                     2
             COO                                            1
             General Counsel                                2
             Other                                         44
             Unknown                                                 16
             “N”                                                     38
            Total                                                   172
           Source: FBI

        Overall, we found significant breakdowns in the process used to develop the
results of the Distressed Homeowner Initiative. We found that the FBI did not have
a rigorous methodology for independently verifying the criminal mortgage fraud
statistics provided by law enforcement agencies nationwide and announced during
the press conference on October 9. 2012. The FBI did not clearly define for the
participating agencies the data that it was requesting nor did it verify the data that
was submitted. When providing the data to the FFETF, the FBI did not include
supporting documentation for the summary data. We find this process to be
disturbing, and it led the Department to report inaccurate information to the public
about the claimed accomplishments of the Distressed Homeowner Initiative.
Further, the inability of the Department to correctly identify its own mortgage fraud
criminal prosecutions, which are part of a supposedly high-priority initiative,
reinforces the concerns, identified previously, regarding the nature of the data
contained in the LIONS system. We recommend that the Department improve its



                                         26

methodologies for soliciting, collecting, reviewing, and reporting the results of its
initiatives.

      Revised Statistics for the Distressed Homeowner Initiative

        After we first learned of the Department’s concerns about the Distressed
Homeowner Initiative statistics, we repeatedly followed up with Department officials
about their efforts to correct the statistics in the months that followed. It was not
until August 9, 2013, 10 months after the DOJ first recognized that its data was
likely severely flawed, that the FBI released a memorandum to the FFETF MFWG
members, which concluded that the statistics announced during the October 9,
2012, press conference overstated the number of defendants that should have been
included as part of the Distressed Homeowner Initiative, as well as the
corresponding estimated loss amount and number of victims 23. According to the
memorandum:

      …in response to questions raised about the statistics, an extensive
      review of the reported cases was conducted. This review concluded
      that the original figures included not just criminal defendants who had
      been charged in Fiscal Year 2012, as reported, but also a number of
      defendants who were the subject of other prosecutive actions – such
      as a conviction or sentence – in Fiscal Year 2012. In addition, last
      October’s announcement included a number of defendants who were
      charged in mortgage fraud cases in which the victim(s) did not fit the
      narrow definition of distressed homeowner that the initiative targeted.

      There are significant differences between the October 9, 2013, press
conference numbers and the numbers in the August 9, 2013, FBI memorandum.
As the following table shows, the criminal statistics originally reported were
overstated immensely. In addition, the Department no longer includes the number
of executives charged in its revised statistics.




      23
           See Appendix V for the FBI Memorandum.


                                             27

         Comparison of Distressed Homeowner Initiative Statistics
                        October 9,     August 9, 2013        Difference
                        2012 Press   FBI Memorandum24
                        Conference
       Criminal             530              107                -80%
    Defendants
     Executives             172          Not Included
       Charged
  Criminal Victims         73,000           17,185              -76%
   Criminal Loss          $1 billion      $95 million           -91%
       Amount
  Civil Defendants          150              128                -15%
    Civil Victims          15,000           19,198               28%
 Civil Loss Amount       $37 million      $54 million            46%
       Source: DOJ and FBI

        The Department’s October 9, 2012, press release and the transcript of the
Attorney General’s remarks at the Distressed Homeowner Initiative press
conference, which can be found on the Departments public website, now include a
disclosure citing the inaccuracy of the originally reported statistics; and the
language in each has revised wording and statistics based on the FBI’s August 2013
memorandum. However, as of August 15, 2013, we found that the FBI and USAOs
continued to present on their public websites the seriously flawed October 2012
statistics because they also had been included in various mortgage fraud-related
press releases that were issued by the Department in the ensuing 10 months.
Therefore, we recommend that the FFETF ensure that all agencies update and
acknowledge in online and other publicly available materials related to the
Distressed Homeowner Initiative the corrections to the inaccurately reported
statistics.

Operation Stolen Dreams

       Operation Stolen Dreams was a FFETF mortgage fraud initiative that focused
on criminal and civil enforcement activities from a broad array of mortgage fraud
schemes that occurred between March 1, 2010, and June 17, 2010. According to a
press release issued by the Department on June 17, 2010, Operation Stolen
Dreams “involved 1,215 criminal defendants nationwide, including 485 arrests, who
are allegedly responsible for more than $2.3 billion in losses.”

        During our review of the data issued by the Department regarding the
Distressed Homeowner Initiative, we were told that the FBI employed a similar
methodology in obtaining statistics for Operation Stolen Dreams. Although we did
not audit the reported results of Operation Stolen Dreams, we recommend that DOJ
revisit the results of the data collection and public reporting to determine if
corrective action is necessary.

       24
           The OIG did not audit the revised figures presented in the FBI Memorandum on the
Distressed Homeowner Initiative.


                                                28

Conclusion

        The Department has stated publicly that mortgage fraud is a high priority,
and the creation of the MFWG was an attempt by the Department to more
effectively coordinate and oversee the effort to address mortgage fraud.
Additionally, the USAOs’ and FBI’s participation on more than 90 local task forces
and working groups appeared to further support the fight against mortgage fraud.
However, we also found that the FBI did not rank mortgage fraud among its highest
ranked priority white collar crimes. We further found that, despite receiving
significant additional funding from Congress to pursue mortgage fraud cases, the
FBI in adding new staff did not always use these new positions to exclusively
investigate mortgage fraud. Moreover, when we attempted to assess the
effectiveness of the Department’s efforts in pursuing mortgage fraud cases, we
found that DOJ could not provide readily verifiable data related to its criminal and
civil enforcement efforts. The DOJ’s release of significantly flawed information at a
highly publicized press conference in October 2012 regarding the purported success
of the FFETF’s and the DOJ’s recent mortgage fraud initiative reflects the lack of
accurate data maintained by the Department regarding its mortgage fraud efforts,
as well as the Department’s serious failure to adequately vet information that it was
presenting to the public. Only days after the press conference the Department had
serious concerns over the accuracy of the reported statistics, yet it was not until
August 2013 when the Department informed the public that the October 2012
reported statistics were indeed flawed. Moreover, during those 10 months, the
Department continued to issue press releases publicizing statistics it knew were
seriously flawed. We believe the Department should have been more forthright at a
much earlier date about this flawed information.

      In this audit report, we provide seven recommendations to improve DOJ’s
approach and efforts to address and report on mortgage fraud.

Recommendations

We recommend that the Department of Justice, as the Chair of the Financial Fraud
Enforcement Task Force:

1.	   Ensure that all agencies update online and other publicly available materials
      related to the Distressed Homeowner Initiative, acknowledge the corrections
      to the inaccurately reported statistics, and notify any key stakeholders of the
      changes.

2.	   Revisit the results of Operation Stolen Dreams to determine if corrective
      action on the publicly reported results is necessary.




                                         29

We recommend that the Department of Justice:

3.	   Implement a methodology for properly soliciting, collecting, and reviewing
      information before publicly reporting results.

We recommend that the FBI:

4.	   Revisit its existing guidance on initiating a mortgage fraud UCO and ensure
      that this training reaches all levels within the field.

We recommend that the Department of Justice and EOUSA:

5.	   Direct all USAOs to periodically assess any monetary thresholds applied to
      mortgage fraud cases to ensure they are reasonably based upon the threat
      within their respective jurisdictions and adequately allow for non-monetary
      harms that result from mortgage fraud schemes, as well as ensure that law
      enforcement agencies in their respective districts have a clear understanding
      of any limiting factors being applied to such cases.

6.	   Develop a method to capture additional data that will allow DOJ to better
      understand the results of its efforts in investigating and prosecuting
      mortgage fraud and to identify the position of mortgage fraud defendants
      within an organization.

7.	   Develop a method to readily identify mortgage fraud criminal and civil
      enforcement efforts for reporting purposes.




                                        30

                 STATEMENT ON INTERNAL CONTROLS

       As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the normal
course of performing their assigned functions, to timely prevent or detect:
(1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations of
laws and regulations. Our evaluation of internal controls was not made for the
purpose of providing assurance on its internal control structure as a whole. The
DOJ components involved with this audit are responsible for the establishment
and maintenance of internal controls.

       As noted in the Findings and Recommendations section of this report, we
identified deficiencies in the Department’s internal controls for collecting and
reporting statistics related to mortgage fraud initiatives that we believe adversely
affected the Department’s ability to accurately track and report to the public on its
mortgage fraud-related efforts and accomplishments.

        Because we are not expressing an opinion on the internal control structure as
a whole, this statement is intended solely for the information and use of the DOJ
components and entities involved with this audit. This restriction is not intended to
limit the distribution of this report, which is a matter of public record.




                                         31

 STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

       As required by the Government Auditing Standards we tested, as appropriate
given our audit scope and objectives, selected statistics, procedures, and practices,
to obtain reasonable assurance that various DOJ components and entities involved
with this audit complied with federal laws and regulations, for which
noncompliance, in our judgment, could have a material effect on the results of our
audit. The various DOJ components and entities that were involved with this audit
are responsible for ensuring compliance with applicable federal laws and
regulations. In planning our audit, we identified the following laws and regulations
that were significant within the context of the audit objectives:

•	    Government Performance and Results Act
•	    Fraud Enforcement and Recovery Act of 2009
•	    Executive Order 13519, Establishment of the Financial Fraud
      Enforcement Task Force

     Nothing came to our attention that caused us to believe that the DOJ
components were not in compliance with the aforementioned laws and regulations.




                                         32

                                                                     APPENDIX I


               OBJECTIVE, SCOPE, AND METHODOLOGY

Audit Objective

      The objective of this audit was to assess the Department of Justice’s
approach and enforcement efforts to address mortgage fraud.

Scope and Methodology

       We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives.

       To perform our audit, we interviewed officials at the Federal Bureau of
Investigation (FBI), Executive Office for United States Attorneys (EOUSA), Office of
the Deputy Attorney General, DOJ Criminal Division, DOJ Civil Division, Office of
Justice Programs, Antitrust Division, Tax Division, and several United States
Attorneys’ Offices (USAO). We also interviewed personnel from non-DOJ agencies
including the Department of Housing and Urban Development Office of the
Inspector General, Federal Housing Finance Agency Office of the Inspector General,
and the Treasury Department’s Financial Crimes Enforcement Network. We
conducted site visits at five USAOs and four FBI Field Divisions.

       To accomplish our audit objective, we also analyzed documents and data
using the scope of FY 2009 through FY 2012.

EOUSA/USAO – Mortgage Fraud Data

      We requested that EOUSA provide us with mortgage fraud data for FYs 2009
through 2011 regarding the number of: (1) cases filed, (2) cases terminated,
(3) defendants charged, (4) dispositions, and (5) funding and resource data.

       As noted in our report, AUSAs in every district we contacted informed us that
the information provided in LIONS should not be considered a complete or reliable
indicator of the work their offices had done to address mortgage fraud due to
instances of underreporting and misclassification of mortgage fraud cases.
Accordingly, we did not test or verify the validity of the data provided by EOUSA,
and our report does not contain conclusions that are based on solely on analyses of
this data.

FBI – Mortgage Fraud Data

        The FBI provided us data for FYs 2009 through 2011 concerning mortgage
fraud for: (1) cases opened, (2) pending investigations, (3) convictions,
(4) information/indictments, (5) Suspicious Activity Reports (SARs), (6) Target
Intelligence Packets (TIPs), (7) undercover operations, (8) Administrative Time



                                         33

Capture system (TURK) data, and (9) funding and resource data. We considered
this data in performing our audit.




                                      34

                                                                        APPENDIX II



                    EXECUTIVE ORDER 13519

           FINANCIAL FRAUD ENFORCEMENT TASK FORCE


Executive Order 13519 of November 17, 2009

Establishment of the Financial Fraud Enforcement Task Force

By the authority vested in me as President by the Constitution and the laws of the
United States of America, and in order to strengthen the efforts of the Department
of Justice, in conjunction with federal, state, tribal, territorial, and local agencies, to
investigate and prosecute significant financial crimes and other violations relating to
the current financial crisis and economic recovery efforts, recover the proceeds of
such crimes and violations, and ensure just and effective punishment of those who
perpetrate financial crimes and violations, it is hereby ordered as follows:

Section 1. Establishment.

There is hereby established an interagency Financial Fraud Enforcement Task Force
(Task Force) led by the Department of Justice.

Sec. 2. Membership and Operation.

The Task Force shall be chaired by the Attorney General and consist of senior-level
officials from the following departments, agencies, and offices, selected by the
heads of the respective departments, agencies, and offices in consultation with the
Attorney General:

(a) the Department of Justice;
(b) the Department of the Treasury;
(c) the Department of Commerce;
(d) the Department of Labor;
(e) the Department of Housing and Urban Development;
(f) the Department of Education;
(g) the Department of Homeland Security;
(h) the Securities and Exchange Commission;
(i) the Commodity Futures Trading Commission;
(j) the Federal Trade Commission;
(k) the Federal Deposit Insurance Corporation;
(l) the Board of Governors of the Federal Reserve System;
(m) the Federal Housing Finance Agency;



                                            35

(n) the Office of Thrift Supervision;
(o) the Office of the Comptroller of the Currency;
(p) the Small Business Administration;
(q) the Federal Bureau of Investigation;
(r) the Social Security Administration;
(s) the Internal Revenue Service, Criminal Investigations;
(t) the Financial Crimes Enforcement Network;
(u) the United States Postal Inspection Service;
(v) the United States Secret Service;
(w) the United States Immigration and Customs Enforcement;
(x) relevant Offices of Inspectors General and related Federal entities, including
without limitation the Office of the Inspector General for the Department of Housing
and Urban Development, the Recovery Accountability and Transparency Board, and
the Office of the Special Inspector General for the Troubled Asset Relief Program;
and
(y) such other executive branch departments, agencies, or offices as the President
may, from time to time, designate or that the Attorney General may invite.


The Attorney General shall convene and, through the Deputy Attorney General,
direct the work of the Task Force in fulfilling all its functions under this order. The
Attorney General shall convene the first meeting of the Task Force within 30 days of
the date of this order and shall thereafter convene the Task Force at such times as
he deems appropriate. At the direction of the Attorney General, the Task Force may
establish subgroups consisting exclusively of Task Force members or their
designees under this section, including but not limited to a Steering Committee
chaired by the Deputy Attorney General, and subcommittees addressing
enforcement efforts, training and information sharing, and victims’ rights, as the
Attorney General deems appropriate.

Sec. 3. Mission and Functions.

Consistent with the authorities assigned to the Attorney General by law, and other
applicable law, the Task Force shall:

(a) provide advice to the Attorney General for the investigation and prosecution of
cases of bank, mortgage, loan, and lending fraud; securities and commodities
fraud; retirement plan fraud; mail and wire fraud; tax crimes; money laundering;
False Claims Act violations; unfair competition; discrimination; and other financial
crimes and violations (hereinafter financial crimes and violations), when such cases



                                           36

are determined by the Attorney General, for purposes of this order, to be
significant;
(b) make recommendations to the Attorney General, from time to time, for action
to enhance cooperation among Federal, State, local, tribal, and territorial
authorities responsible for the investigation and prosecution of significant financial
crimes and violations; and
(c) coordinate law enforcement operations with representatives of State, local,
tribal, and territorial law enforcement.

Sec. 4. Coordination with State, Local, Tribal, and Territorial Law Enforcement.

Consistent with the objectives set out in this order, and to the extent permitted by
law, the Attorney General is encouraged to invite the following representatives of
State, local, tribal, and territorial law enforcement to participate in the Task Force’s
subcommittee addressing enforcement efforts in the subcommittee’s performance
of the functions set forth in section 3(c) of this order relating to the coordination of
Federal, State, local, tribal, and territorial law enforcement operations involving
financial crimes and violations:
(a) the National Association of Attorneys General;
(b) the National District Attorneys Association; and
(c) such other representatives of State, local, tribal, and territorial law enforcement
as the Attorney General deems appropriate.

Sec. 5. Outreach.

Consistent with the law enforcement objectives set out in this order, the Task
Force, in accordance with applicable law, in addition to regular meetings, shall
conduct outreach with representatives of financial institutions, corporate entities,
nonprofit organizations, State, local, tribal, and territorial governments and
agencies, and other interested persons to foster greater coordination and
participation in the detection and prosecution of financial fraud and financial crimes,
and in the enforcement of antitrust and antidiscrimination laws.

Sec. 6. Administration.

The Department of Justice, to the extent permitted by law and subject to the
availability of appropriations, shall provide administrative support and funding for
the Task Force.

Sec. 7. General Provisions.

(a) Nothing in this order shall be construed to impair or otherwise affect:
       (i) authority granted by law to an executive department, agency, or the head
       thereof, or the status of that department or agency within the Federal
       Government; or
       (ii) functions of the Director of the Office of Management and Budget relating
       to budgetary, administrative, or legislative proposals.
(b) This Task Force shall replace, and continue the work of, the Corporate


                                          37

Fraud Task Force created by Executive Order 13271 of July 9, 2002.

Executive Order 13271 is hereby terminated pursuant to section 6 of that order.

(c) This order shall be implemented consistent with applicable law and subject to
the availability of appropriations.
(d) This order is not intended to, and does not, create any right or benefit,
substantive or procedural, enforceable at law or in equity by any party against the
United States, its departments, agencies, or entities, its officers, employees, or
agents, or any other person.

Sec. 8. Termination.

The Task Force shall terminate when directed by the President or, with the approval
of the President, by the Attorney General.




                                         38

                                                   APPENDIX III


            DOJ COMPONENTS TASKED WITH COMBATING
                      MORTGAGE FRAUD

Office of the Attorney General

Office of the Deputy Attorney General

Office of the Associate Attorney General

Executive Office for the United States Attorneys

United States Attorneys’ Offices

Federal Bureau of Investigation

Criminal Division

Civil Division

Executive Office for United States Trustees

Office of Justice Programs

Tax Division

Antitrust Division

Civil Rights Division




                                           39

                                                                     APPENDIX IV


                 DISTRESSED HOMEOWNER INITIATIVE

                         PRESS CONFERENCE


                     Attorney General Eric Holder Speaks at the

                 Distressed Homeowner Initiative Press Conference

                    Washington, D.C. Tuesday, October 9, 2012


Good morning. Today I’m joined by several key leaders in the federal
government’s ongoing work to combat financial fraud – and specifically, to prevent
and punish the various types of mortgage fraud schemes that, in recent years, have
devastated homeowners, families, and communities nationwide. Secretary Shaun
Donovan, of the Department of Housing and Urban Development; FBI Associate
Deputy Director Kevin Perkins; Chairman Jon Leibowitz, of the Federal Trade
Commission; and HUD Inspector General David Montoya are here to help announce
the results of a groundbreaking, year-long mortgage fraud enforcement effort – the
first ever to focus exclusively on crimes targeting homeowners.

 This national effort – known as the Distressed Homeowner Initiative – ran from
October 1st, 2011, to September 30th of this year – and was led by members of
the Mortgage Fraud Working Group of the Financial Fraud Enforcement Task Force.
This landmark Initiative, spearheaded by the FBI, was launched to help streamline
and advance investigations and prosecutions against fraudsters who allegedly
targeted, and preyed upon, Americans struggling to keep their homes. And it’s
been a model of success. Over the past 12 months, it has enabled the Justice
Department and its partners to file federal criminal charges against 107 defendants
for allegedly victimizing more than 17,185 American homeowners – and inflicting
losses in excess of $95 million. On the civil side, as part of this Initiative, Mortgage
Fraud Working Group Members have filed federal civil cases against 128defendants
for losses totaling at least $54 million, and involving more than 19,000 victims. In
addition, our Mortgage Fraud Working Group partners in the offices of state
attorneys general also have filed civil and criminal actions with at least 3,000
additional homeowner-victims identified. And, demonstrating that we are taking
significant steps to protect homeowners before they are victimized, the Treasury
Department and SIGTARP shut down or forced into compliance more than 900
fraudulent or confusing websites and web advertisers that displayed the Treasury
Seal – and key TARP housing program names – in an effort to dupe struggling
homeowners looking for someone to help them. All told, in both federal and state
criminal and civil cases, the Distressed Homeowner Initiative has identified – and
worked to assist – more than 36,000 vulnerable victims.

Thanks to the leadership of the Mortgage Fraud Working Group; the hard work of
our U.S. Attorneys’ Offices and the Justice Department’s Civil and Criminal
Divisions; the dedication of FBI officials – including personnel from at least 32 Field
Offices; the large volume of victim complaint information made available through
FTC databases and other sources; and the commitment of experts, agents, and
investigators from the FTC, HUD’s Office of Inspector General, SIGTARP, the FHFA’s
Office of Inspector General, and a range of other federal and state agencies – this
Initiative has had a tremendous impact.


                                          40

For example, in July, five individuals were indicted in Texas for allegedly sending
false military orders to lending institutions, claiming benefits entitled to
servicemembers, and then leasing out the homes to collect rental payments. And
over the last few months, in the greater Los Angeles area, a number of agencies
have partnered with the local U.S. Attorney’s Office to “surge” investigative and
enforcement resources in order to combat increased threats to homeowners. Last
month, their efforts resulted in an indictment against 11 individuals for their alleged
roles in a loan modification scheme that victimized more than 4,000 financially
distressed homeowners, many of whom lost their homes to foreclosure as a result.
I’m pleased to announce that in the coming weeks, the Victims’ Rights Committee
of the Financial Fraud Enforcement Task Force, partnering with the Certified
Financial Planner Board and the Foundation for Financial Planning – in an
unprecedented event – will make financial consulting services available to these
victims for free. And, in an effort to raise awareness about fraud crimes from coast
to coast – and to keep homeowners from being victimized – today, the FBI is
releasing a public service announcement featuring actor Tim DeKay, who portrays a
special agent on the television show “White Collar.” We’ll play the spot after the
press conference, and it will be online at “stopfraud.gov” as well.

 But this is only the beginning. In addition to traditional mortgage fraud crimes,
the federal government also has committed substantial resources to identify and
prevent other schemes that can negatively affect fragile housing markets –
including instances of fraud in the origination, securitization, and servicing of
mortgage loans; foreclosure public auction bid rigging; and discriminatory lending
practices. Under the Residential Mortgage-Backed Securities Working Group of the
Financial Fraud Enforcement Task Force, our partners in the New York State
Attorney General’s Office recently filed a civil complaint against J.P. Morgan
resulting from Bear Stearns’ fraudulent representations concerning the due
diligence undertaken to ensure the quality of the loans backing its securities. As
you’ve heard, the Department provided substantial resources to this effort, and
other investigations remain ongoing. Thanks to the Non-Discrimination Working
Group and the Justice Department’s Civil Rights Division, we’ve been relentless in
investigating fair lending violations to ensure that lenders do not discriminate on
the basis of race or color – and, in 2011 alone, settled or filed a record number of
cases through the Division’s Fair Lending Unit. And since the beginning of this year
– in partnership with HUD and HUD’s Inspector General – we’ve announced civil
settlements totaling more than $1.5 billion with a variety of financial institutions
that engaged in mortgage origination abuses in violation of HUD-FHA requirements.

 Put simply, these comprehensive efforts represent an historic, government-wide
commitment to eradicating mortgage fraud and related offenses across the country.
And the results obtained by the many dedicated attorneys, experts, agents, and
investigators who stand on the front lines of this work prove that our approach is
working; that progress is possible; and that – as long as we continue to partner
with a range of committed allies and engage the help of an informed public – there
is good reason for confidence in where our anti-fraud efforts will take us from here.




                                          41

At this point, I’d like to turn things over to another critical leader, and partner, in
this work, Secretary Shaun Donovan.




                                           42

                                                                                                      APPENDIX V




FEDERAL BUREAU OF INVESTIGATION MEMORANDUM


 MEMORAND UM
 Subjel1: Distrcss.;cl Homeowner rniliative                Date: August 9, 20 13

 To:                                                      Fro m:
 Mortgage haud Working Group Mt:mbers                     Federal Bureau o[Investiga tion
                                                          Co-Chair, M011gage Fraud Working Group

          On Ocloba- 9, 20 12, memben; nfthe Mortgage Fraud Working Group announced the results of
 the yea r-long Distressed HomeQwner Inili3th'c. This nntionw ide effort targeted fraud schcmC!l that
 preyed IIpon vulnerable homeowners _ In order to protect struggling homeowners who m.1y become
 targets and incr<;i\sc!he number of criminal enforcement actions, the Initiative focusc:d on existing
 io",;sjigations involving vuln erable homeowners and S.,;llna1c:d new investigations using victim complaint
 data. It included sophisticated inn:s tigat ivc techni([ues, such as undercover operation~, as well as II surge
 uf scveral1aw enforcement agencies in southern Ca lifornia, where many foreclosure rescue SC.lnlS were
 concentrated. The Ini tiative was a collaborative elTort involvin g participation from numcrous federal
 agcncic~ including: thc Fcderal Rurcau oflnve~tigation, the Oflke of the ln~pcetor l.cncra l ofthc
 Department of Housing and Urban Development, the Federal Housing Finance Agcncy's Office of the
 Inspector G~"Ilcral (Fffi'A-OIG), the Special Inspector General for Troubled Assd RdicfProgram
 (SIGTARP), the Internal Revenue Service - Crimina l lnvcstigation, the U. S. Postal Inspect ion Serviec,
 the United Slat o;:!; Secret Service, the Departnu.."Ilt of Justice's U.S. Tn/stee Program, the Fe<leral Trade
 Commission, and the Consumer Financial Protection Bureau. "Ibis targ('1e<1 approach resuhed in the
 successful filing of many criminal and civil cases across the country, but regrettably, the statistics
 reported in October included case!! that fdl outside the specific parameters ofthc Initiati ve.

          Aller the results of the Initiative were reported, in response to questions raised about the statistics,
 an e,xtcnsive review of the rcporll;Xl cases was conducted. "Ibis review concluded that the original figures
 incl uded not just criminal defendants who had been charged in Fiscal Year 2012, as reported, but also a
 number of defemlanls who were the subject of other prosecutive actions - such as a oonvict ion or
 sentence - in Fisc.ll Year 20 12 In ad dition, last October 's announcem~"Ilt included a nWllber of
 defendants who were charged in mortgage fraud cases in which the victim(s) did not fit the nalTow
 definition of distressed homeowner that the initiative targeted. for examp le, some of the defendants
 incl uded in the original statistics were involv<;:(l in loan origination schemes and other such schemes that
 did not specifically target and victimize distresSoo homC(>wnet"!l. As a result, the public aJUlouncement
 overstated the number of defendants that should have been includoo as part of the Distressed Homeowner
 Initiative, as well as the c01Tcsponding estimatoo loss amount and number of victims.

           Following this detaile<l review, the updlted numbers are: 107 criminal defendants were charged
 in l"iscal Year 20 12 in federal distressed homeowner prosecutions in U.S. Distric t Courtli across the
 COlU1try. TIlOse cases had an estimatoo 17, 185 ho meowner victims and an estimated total loss amount,
 incl uding losses to homeowners and ot her victims of the fraud schemes, of mDre than S95 million. Tn
 addition, cases were tiled against a total of 128 civil defendants in fooeral oowts from caastto coast, with
 an estimated total loss amount 01'554 mil lion and 19, 198 \~ctims. While al l of tim cases origina ll y
 reported were part of our colloctive elTorts to ensure stability and fairness in our financial and housing
 markets , these updated numbers reflcctthe sub set of cases targeted by the Fiscal Year 20 12 Distressed
 Homeowner Initiati\'e. P lease be sure to update any online materials rostoo by your a gency to reflect
 these changes.




                                                       43

                                                                                        APPENDIX VI

DEPARTMENT OF JUSTICE RESPONSE TO THE DRAFT AUDIT
                     REPORT

                                                        u.s.   Department of Justice

                                                        Office of the Deputy Attorney General




                                                        February 21, 2014




    MEMORANDUM FOR MICHAEL E. HOROWITZ
                   TNSPECTOR GENERAL
                   U.S. DEPARTMENT OF7                         1CE

    FROM:                   James M. Cole     .A
                            Deputy Attorne;.6ene ral

    SUBJECT:                Response: Audit of the Department of Justice's
                            Efforts to Addre,,-'i Mortgage Fraud


            We appreciUle the audi t undertaken by the Department of Justice (OOJ or the
    "Department"), Office of the Inspector General (OIG) regarding efforts by the Department,
    particularly the Federal 8ureau of Investigation (fBi), U.S. Attorneys' Offices, Criminal
    Division, and Civil Division, as a part of the Attorney General's Financial Fraud Enforcement
    Task Force (ffETF), to address mortgage fraud generally belwccn fiscal ycars 2009 and 2011.
    As pan ofils work, DIG inquired into the policies and practices concerning how case data was
    collected and reported regarding mortgage fraud. The DIG report contains seven
    recommendUlions related to that inquiry. We agree with these recommendations, although we
    note here several points that deserve further emphasis_




                                                  44

Memorandum from the Deputy Anomey General                                              Page 2
Subject: Response: Audit of the Department of Justice's Efforts to Address Mortgage Fraud




        As an initial matter, the Department has focused successfully on mortgage fraud
violations. As the FBI data in the audit report itself reflects, the number of mortgage fraud
convictions more than doubled from FY 2009 to FY 2010, i.e., from 555 to 1,087 convictions,
and then increased further in FY 2011 to I ,ll8 convictions.


                                FBI Mortgage F~ud Statistics by Fiscal Year


                       ... .
                       "'"
                       "
                       '"' .
                       .. .
                           o·
                           ,."                M"               Mn


Further, and as the FBI data in the audit report also reflects, mortgage fraud indictments nearly
doubled from 873 indictment in FY 2009 to 1,565 indictments in FY 2010, and then leveled off
at 1,230 indictments in FY 2011. This set of statistics reflects a rapid mobilization of
Department resources to combat mortgage fraud during this period, and provides strong
indicators ofDOJ's success in investigating and prosecuting mortgage fraud.

         The Department also added significant infrastructure as a part of its mortgage fraud
efforts. As a part of its audit, 010 visited five U.S. Attorneys' Offices and found that all five
offices had an Assistant U.S. Anorney (AUSA) who was assigned to be that office's mortgage
fraud coordinator. These coordinators play an important role in helping AUSAs stay updated on
developments in mongage fraud enforcement, investigative techniques, and prosecutorial
strategies, and they have expanded the ability ofDOJ to build and prosecute mortgage fraud
cases. Similarly, the audit report also makes reference to the approximately 90 multi-agency task
forces and working groups dedicated to mortgage fraud. These groups exist throughout the
country and act as a resource multiplier. enabling a dedicated staff of AUSAs, FBI Special
Agents, and investigators from other agencies to corrununicate and coordinate mortgage fraud
efforts.




                                                   45

Memorandum from the Deputy Attorney General                                            Page 3
Subject: Response: Audit of the Department of Justice's Efforts to Address Mortgage Fraud




        During the audit period, the Department also held specialized training programs in
mortgage fraud. For example, in March 201 0, the FFETF's Mortgage Fraud Working Group
brought together federal and state enforcement attorneys for a three-day training to cover the
operation of mortgage fraud task forces, federal~state cooperation and coordination in combating
mortgage fraud, civil tools, state tools, case studies, and discovery issues. This was the first
training ofits kind and included approximately 130 attorneys. See First Year Report/or the
Financial Fraud En/orcemem Task Force § 4.10 (2010), available at
http: //www.stopfraud.gov/docslFFETF~Report-LR.pdf(''Fjrst Year Report}. Later in 2010, and
again 2011, the Department held follow-up trainings and seminars covering mortgage fraud.

        On top of training and conferences, the Mortgage Fraud Working Group also held
regional summits around the country during the audit period in Miami, Detroit, Phoenix,
Columbus, Fresno, and Los Angeles. See First Year Report § 3.5. During those summits. the
public came together to hear from law enforcement, victims, housing counselors, industry
experts and others to discuss and assess mortgage fraud issues in that community. ld. The
regional swnmits also included closed sessions with regional law enforcement authorities to
discuss strategies, resources, and initiatives to successfully combat mortgage fraud. ld.

         In conducting its audit, OIG identified issues with the Department's data collection and
reporting process, focusing in particular on the policies and practices surrounding the data cited
in the Department's October 9, 2012 announcement associated with the Distressed Homeowner
Initiative (DHI). On August 9, 2013, the Department released revised statistics to correct the
numbers previously released. Indeed, when questions were raised regarding the correctness of
the statistics, the FBI, the Executive Office ofO.S. Attorneys (EOUSA), and the U.S. Attorneys'
Offices began working to detennine the source of the error and to determine the correct data.
While it took some time to fully verify the set of data. we issued corrections approximately six
months ago and took steps to modify press releases and other public statements to reflect the
correct statistics. While the errors associated with the data in the initial DHI announcement were
related to the unique nature of that effort, the Department has committed to putting robust
measures in place to help ensure correct reporting offuture data in press releases and
conferences.

        In any event, the OHI reporting does not detract from the successes that the Department
achieved during the audit period of2009 to 2011 . Indeed, in addition to the high overall
charging and conviction rates listed above, the Department has brought significant criminal and
civil enforcement actions against company officials for conducting mortgage fraud resuJting in
significant losses. For example, in the crimlnai enforcement context, the Department secured a
conviction in 2011 against Lee Bentley Farkas, the former chainnan of a private mortgage
lending company, Taylor, B'ean & Whitaker, for Farkas's role in a more than $2.9 billion fraud
scheme that contributed to the failure of Colonial Bank, one of the 25 largest banks in the United




                                               46

Memorandum from the Deputy Attorney General                                            Page 4
Subject: Response: Audit of the Department of Justice's Efforts to Address Mortgage Fraud




States in 2009. In the civil context, the Department and 49 state Attorneys General reached a
$25 billion agreement with the nation's five largest mortgage servicers in February 2012 to
address mortgage loan servicing and foreclosure abuses. This package of agreements, which was
proposed as the result of investigative work in 2011, was the largest federal-state civil settlement
ever obtained. Under the settlement, the mortgage servicers agreed to pay $5 billion in cash, and
conunitted to provide $20 billion in consumer rcliefto struggling homeowners. The mortgage
servicers also agreed to implement tough new servicing standards designed to protect consumers
from future abuses. See also First Year Report, §§ 4.10-4.15 (providing additional criminal and
civil enforcement examples).

       To address its concerns regarding data collection and reporting, OIG has made seven
recommendations. We concur with each recommendation, and for ease of review, each
reconunendation is followed by the Department's response.

Recommendation No.1 to the Department of Justice. as the Chair of the Financial
Enforcement Task Force: "Ensure that all agencies update online and other publicly available
materials related to the Distressed Homeowner Initiative, acknowledge the corrections to the
inaccurately reported statistics. and notify any key stakeholders of the changes."

       Response: Concur. The Department has conducted a review of all actions to date. and
       all components have updated or deleted any inaccurate infonnation regarding OHI.
       Given that the corrective actions necessary to resolve this reconunendation have been
       taken already. this recommendation should be closed.

Recommendation No.2 to the Department of Justice, as the Chair ofthe Financial Fraud
Enforcement Task Force: "Revisit the results of Operation Stolen Dreams to determine if
corrective action on the publicly reported results is necessary."

       Response: Concur. In conjunction with the FBI, the Department will review the
       methodology used to collect the results of Operation Stolen Dreams, which were released
       publicly to detennine if corre<:tive action is necessary. If corrective action is necessary,
       the Department will work with the FBI to ensure any public records that contain material
       discrepancies are corrected.

Recommendation No.3 to the Department of Justice: "Implement a methodology for
properly soliciting, collecting, and reviewing infonnation before publicly reporting results."

       RespoDse: Concur. The Department will issue and implement a set of best practices for
       soliciting, collecting, and reviewing infonnation before publicly reporting results.




                                                47

Memorandwn from the Deputy Attorney General                                            Page 5
Subject: Response: Audit of the Department of Justice's Efforts to Address Mortgage Fraud .




Recommendation No.4 to the FBI: "Revisit its existing guidance on initiating a mortgage
fraud UCO [undercover operations] and ensure that this training reaches all levels within the
field."

       Response: Concur. The FBI will review its existing guidance and ensure necessary
       training reaches all levels of investigative personnel responsible for mortgage fraud
       investigations.

Recommendation No.5 to the Department of Justice and EOUSA: " Direct all USAOs to
periodically assess any monetary thresholds applied to mortgage fraud cases 10 ensure they are
reasonably based upon the threat within their respective jurisdictions and adequately allow for
non-monetary harms that result from mortgage fraud schemes, as well as ensure that law
enforcement agencies in their respective districts have a clear understanding of any limiting
factors being applied to such cases."

       Response: Concur. The Department has already directed USAOs to assess prosecution
       thresholds for both violent and white collar crime, consistent with the Attorney General's
       Memorandum on Federal Prosecution Priorities, dated August 12,2013. As a part of
       implementing the Attorney General's policy, we will also assess any money thresholds
       applied to mortgage fraud cases.

Recommendation No.6 to the Department of Justice and EOUSA: "Develop a method to
capture additional data that will allow DOJ to better Wlderstand the results of its efforts in
investigating and prosecuting mortgage fraud and to identify the position of mortgage fraud
defendants within an organization."

       Response: Concur. While the Department already has a good understanding of the
       results of its efforts in addressing mortgage fraud, the Department will continue to
       evaluate and reassess its existing data collection mechanisms for allowing the
       Department to bener Wlderstand the results of its efforts in investigating and prosecuting
       mortgage fraud and to identify the position of mortgage fraud defendants within an
       organization. Indeed, EOUSA has already begun considering the addition of a LIONS
       field for "occupation" in financial fraud and mortgage fraud cases.

Recommendation No.7 to the Department of Justice and EOUSA: "Develop a method to
readily identify mortgage fraud criminal and civil enforcement efforts for reporting purposes."

       Response: Concur. The Department will review existing data collection procedures to
       improve upon the current system of identifying mortgage fraud cases for reporting
       purposes. We note that the Department already has methods to readily identify mortgage
       fraud criminal and civil enforcement efforts for reporting purposes, including LIONS in




                                               48

Memorandwn from the Deputy Attorney General                                            Page 6
Subject: Response: Audit of the Department of Justice's Efforts to Address Mortgage Fraud




       the U.s. Attorneys' Offices and the Automated Case Tracking System (ACTS) in the
       Criminal Division. Indeed, ACTS contains a separate program category known as "MF'
       to target mortgage fraud cases being investigated and prosecuted in the Criminal
       Division, and LIONS also has a code associated with mortgage fraud cases. With respect
       to civil cases, as the audit report acknowledges, the Department's Civil Division already
       tracks civil mortgage fraud cases nationwide. Nevertheless, the Department will aim to
       improve upon its current system by considering the implementation of additional
       procedures., including, for example, reminders to prosecutors to promptly input and check
       nwnbers for mortgage fraud cases.

cc:    Tony West, Associate Attorney General
       Mark Guiliano, Federal Bureau of Investigation
       Mythili Raman. Criminal Division
       Stuart Delery, Civil Division
       Brian Fallon, Office of Public Affairs
       Marshall Jarrett. Executive Office for United States Attorneys
       Benjamin Wagner, U.S. Attorney's Office for the Eastern District ofCaliforrua




                                              49

                                                                 APPENDIX VII

OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY
       OF ACTIONS NECESSARY TO CLOSE THE REPORT

        The OIG provided a draft of this audit report to the Department of Justice
(Department). The Department’s response is incorporated in Appendix VI of this
final report. The following provides the OIG analysis of the response and summary
of actions necessary to close the report.

Recommendation:

1.	 Ensure that all agencies update online and other publicly available
    materials related to the Distressed Homeowner Initiative, acknowledge
    the corrections to the inaccurately reported statistics, and notify any
    key stakeholders of the changes.

   Resolved. The Department concurred with our recommendation. In its
   response, the Department stated it conducted a review of all actions to date,
   and all components have updated or deleted any inaccurate information
   regarding DHI. Based on this response the Department believes that this
   recommendation should be closed.

   This recommendation can be closed when we receive evidence that all
   Department components have updated their online and publically available
   materials related to the Distressed Homeowners Initiative.

2.	 Revisit the results of Operation Stolen Dreams to determine if corrective
    action on the publicly reported results is necessary.

   Resolved. The Department concurred with our recommendation. In its
   response, the Department stated that in conjunction with the FBI, it will review
   the methodology used to collect the results of Operation Stolen Dreams, which
   were released publicly, to determine if corrective action is necessary. If
   corrective action is necessary, the Department stated that it will work with the
   FBI to ensure any public records that contain material discrepancies are
   corrected.

   This recommendation can be closed when we receive evidence that the
   Department and the FBI have reviewed the results of Operation Stolen Dreams
   and confirmed whether material discrepancies were found. If material
   discrepancies are found, the recommendation can be closed when the necessary
   public records are corrected.

3.	 Implement a methodology for properly soliciting, collecting, and
    reviewing information before publicly reporting results.

   Resolved. The Department concurred with our recommendation. In its
   response, the Department stated that it will issue and implement a set of best



                                        50

  practices for soliciting, collecting, and reviewing information before publicly
  reporting results.

  This recommendation can be closed when we receive evidence that the

  Department issued and implemented a set of best practices for soliciting,

  collecting, and reviewing information before publicly reporting results.


4.	 Revisit its existing guidance on initiating a mortgage fraud UCO and
    ensure that this training reaches all levels within the field.

  Resolved. The Department concurred with our recommendation. In its
  response, the Department stated that the FBI will review its existing guidance
  and ensure necessary training reaches all levels of investigative personnel
  responsible for mortgage fraud investigations.

  This recommendation can be closed when we receive evidence that the FBI
  reviewed its existing guidance and ensured that necessary training reached all
  levels of investigative personnel responsible for mortgage fraud investigations.

5.	 Direct all USAOs to periodically assess any monetary thresholds applied
    to mortgage fraud cases to ensure they are reasonably based upon the
    threat within their respective jurisdictions and adequately allow for
    non-monetary harms that result from mortgage fraud schemes, as well
    as ensure that law enforcement agencies in their respective districts
    have a clear understanding of any limiting factors being applied to such
    cases.

  Resolved. The Department concurred with our recommendation. In its
  response, the Department stated that it has directed USAOs to assess
  prosecution thresholds for both violent and white collar crime, consistent with
  the Attorney General's Memorandum on Federal Prosecution Priorities, dated
  August 12, 2013. Also, as a part of implementing the Attorney General's policy,
  USAOs will assess any money thresholds applied to mortgage fraud cases.

  This recommendation can be closed when we receive evidence that monetary
  thresholds applied to mortgage fraud cases were assessed as part of the
  Department’s implementation of the Attorney General’s Memorandum on Federal
  Prosecution Priorities, dated August 12, 2013.

6.	 Develop a method to capture additional data that will allow DOJ to
    better understand the results of its efforts in investigating and
    prosecuting mortgage fraud and to identify the position of mortgage
    fraud defendants within an organization.

  Resolved. The Department concurred with our recommendation. In its
  response, the Department stated that it will evaluate and reassess its existing
  data collection mechanisms for allowing the Department to better understand




                                         51

  the results of its efforts in investigating and prosecuting mortgage fraud and to
  identify the position of mortgage fraud defendants within an organization.

  In addition to an evaluation and reassessment of its existing data collection
  mechanisms related to the investigation and prosecution of mortgage fraud
  cases, this recommendation can be closed when we receive evidence that the
  Department has developed a method to capture additional data related to
  identifying the position of mortgage fraud defendants within an organization.

7.	 Develop a method to readily identify mortgage fraud criminal and civil
    enforcement efforts for reporting purposes.

  Resolved. The Department concurred with our recommendation. In its
  response, the Department stated that it will review existing data collection
  procedures to improve upon the current system of identifying mortgage fraud
  cases for reporting purposes and will aim to improve upon its current system by
  considering the implementation of additional procedures, including, for example,
  reminders to prosecutors to promptly input and check numbers for mortgage
  fraud cases.

  This recommendation can be closed when we receive evidence that the
  Department has developed a method to readily identify mortgage fraud criminal
  and civil enforcement efforts for reporting purposes.




                                        52

